<html>
<title> - OUT OF THE SHADOWS: THE GLOBAL FIGHT AGAINST HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     OUT OF THE SHADOWS: THE GLOBAL FIGHT AGAINST HUMAN TRAFFICKING 

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2010

                               __________

                           Serial No. 111-131

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

61-518 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
  Samoa                              DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH, Florida          CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Luis CdeBaca, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................    10
Mr. David Abramowitz, Director of Policy and Government 
  Relations, Humanity United.....................................    37
The Honorable Mark P. Lagon, Chair, International Relations and 
  Security Concentration, and Visiting Professor, Edmund A. Walsh 
  School of Foreign Service, Georgetown University...............    50
Aruna Uprety, M.D., Founder, Rural Health Education Services and 
  Trust, Partner, American Himalayan Foundation's Stop Girl 
  Trafficking Program............................................    61
Ms. Neha Misra, Senior Specialist, Migration & Human Trafficking, 
  Solidarity Center, AFL-CIO.....................................    73
Beryl D'souza, M.D., Medical Director and Anti-Human Trafficking 
  Director in India, Dalit Freedom Network.......................    90

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Luis CdeBaca: Prepared statement...................    13
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Statement to the St. Thomas 
  University Human Trafficking Forum, September 13, 2010.........    24
Mr. David Abramowitz: Prepared statement.........................    41
The Honorable Mark P. Lagon: Prepared statement..................    54
Aruna Uprety, M.D.: Prepared statement...........................    64
Ms. Neha Misra: Prepared statement...............................    76
Beryl D'souza, M.D.: Prepared statement..........................    92

                                APPENDIX

Hearing notice...................................................   108
Hearing minutes..................................................   109
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................   110
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   113
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   114
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   115
Mr. David Abramowitz: Material submitted for the record..........   116
Aruna Uprety, M.D.: Material submitted for the record............   120
Written responses from witnesses to questions submitted for the 
  record by the Honorable Russ Carnahan..........................   122
Written responses from witnesses to questions submitted for the 
  record by the Honorable Barbara Lee, a Representative in 
  Congress from the State of California..........................   136


     OUT OF THE SHADOWS: THE GLOBAL FIGHT AGAINST HUMAN TRAFFICKING

                              ----------                              


                      THURSDAY, SEPTEMBER 30, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order.
    In a moment, I will recognize myself and the ranking member 
for up to 7 minutes each--the ranking member for this hearing 
will be the gentleman from New Jersey, Mr. Smith; there is a 
certain appropriateness to that in this particular hearing--and 
also Mr. Royce for a 3-minute opening statement. Any other 
members who come can have 1-minute opening statements. And, 
without objection, members may also place written statements in 
the record.
    Human trafficking, or ``trafficking in persons,'' is an 
affront to human dignity that links communities across the 
world in a web of money, exploitation, and victimization.
    Trafficking encompasses many types of exploitative 
activities, including sex trafficking, slavery, forced labor, 
peonage, debt bondage, involuntary domestic servitude, and 
making children into soldiers.
    The International Labor Organization estimates that 12.3 
million children and adults are currently suffering from forced 
labor, bonded labor, and forced prostitution worldwide. Of that 
number, approximately 2.4 million are trafficked either 
internally or across national borders.
    Human trafficking is a $32 billion global criminal 
enterprise, second only to illegal drugs in the profits it 
generates for its perpetrators, which range from sophisticated 
criminal syndicates, to independently owned businesses with 
labor recruiters, to family operations.
    Trafficking is a problem that can be effectively confronted 
only through cross-border cooperation, but it has proven very 
difficult to combat.
    Next month marks the 10th anniversary of enactment of the 
Trafficking Victims Protection Act, authored by our colleague 
Chris Smith. That law provided protection and assistance for 
victims of trafficking, authorized public awareness prevention 
campaigns and strengthened the prosecution and punishment of 
traffickers.
    We have reauthorized the Trafficking Victims Protection Act 
several times and, in the process made the act much more 
effective in protecting the most vulnerable and punishing the 
guilty.
    One hundred fifteen other nations now have laws on the 
books banning all forms of trafficking, and the number of 
victims identified and traffickers prosecuted has grown over 
the years.
    But trafficking remains a persistent problem, and many 
challenges remain--both at home and abroad--as we look to the 
next decade of anti-trafficking efforts.
    Earlier this month, the Department of Justice and the FBI 
dismantled the Nation's largest human trafficking ring and 
indicted six recruiters for bringing 400 Thai laborers to the 
United States.
    These laborers were lured to the United States with false 
promises of high-paying jobs. Some of the victims were duped 
into paying up to $21,000 in recruiting fees. Once in this 
country, their passports were confiscated and they were forced 
to work under slave-like conditions. If the victims complained, 
they were threatened with deportation.
    They lived without electricity, sanitation, and running 
water. They were cheated out of their wages for back-breaking 
work picking fruits and vegetables. Because their food rations 
were insufficient, many had to resort to eating leaves or 
fishing in rivers.
    This example of forced labor trafficking involved labor 
brokers who convinced their victims that they were not ``free'' 
until they first paid off their recruitment fee debt. With a 
high debt, workers entered into a debt bondage situation and 
became vulnerable to exploitation.
    We need to pay particular attention to this form of forced 
labor trafficking and examine the role of labor brokers and how 
their presence increases the chances of exploitation of 
workers. According to Anti-Slavery International, debt bondage 
is ``probably the least known form of slavery today, and yet it 
is the most widely used method of enslaving people.''
    The State Department's annual Trafficking in Persons Report 
contains a wealth of information about debt bondage, forced 
labor, and other forms of trafficking worldwide. The report 
also provides a country-by-country analysis and ranking, based 
on what progress countries have made throughout the year in 
their efforts to prosecute, protect, and prevent trafficking in 
persons.
    We are honored to welcome Ambassador-at-Large Luis CdeBaca, 
who oversaw the compilation of this year's TIP Report. We are 
particularly interested in hearing from him about the major 
trends and challenges in trafficking, whether sanctions are a 
useful tool in persuading other nations to increase cooperation 
with the United States in anti-trafficking efforts, and the 
U.S. ranking in the report.
    The fight against human trafficking is the modern-day 
continuation of the fight against slavery. It is the fight to 
give all people the dignity they deserve, and to prevent human 
beings from being reduced to machines for production or 
pleasure.
    A number of my colleagues on both sides of the aisle have 
been leaders in the fight against human trafficking and in the 
months ahead we will continue our efforts to make the 
Trafficking Victims Protection Act as effective as possible.
    In addition to Ambassador CdeBaca, we have an extraordinary 
and distinguished panel of experts with us today that will 
address some of the key issues associated with human 
trafficking.
    I should let the audience and others who might be following 
this hearing know that, when we set this hearing, we expected 
Congress to be in session through next week. When it got into 
the early and middle of September, we expected Congress to be 
in session through Friday. And it turns out Congress recessed 
for the election last night.
    The one thing I can assure people is that Members of 
Congress and members of this committee have a very high 
interest in this subject. Because of the schedule, a number of 
members aren't going to be at the hearing this morning. We have 
circulated the testimony and the information was passed around.
    And now I am very pleased to turn to the ranking member for 
this hearing, the ranking member of the Africa and Global 
Health Subcommittee, the author of the original legislation, 
Chris Smith, for any comments he may wish to make.
    [The prepared statement of Chairman Berman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Mr. Chairman, thank you very much, and 
especially thank you for convening this very important hearing 
on human trafficking.
    You know, Mr. Chairman, we have come a long way since a 
September 1999 hearing that I chaired on human trafficking in 
this very room--it was part of a series--almost 11 years to the 
day today. And that particular hearing, then-Assistant 
Secretary Howard Koh called human trafficking ``a global 
plague'' and said that, while the Clinton administration 
supported the objective of the bill to combat trafficking, he 
testified that the existing legislative framework was 
sufficient and that new legislation should not focus on 
developing new institutions or establishing onerous new 
requirements. Beefed-up reporting in the annual country reports 
on human rights practices, he said, would suffice.
    Secretary Koh further testified that the administration 
sharply objected to singling out and sanctioning countries with 
poor records and government complicity in trafficking, but did 
agree on the need for alien asylum protection and enhanced 
criminal penalties for traffickers.
    That said, we pushed hard and ahead, in a totally 
bipartisan fashion, and crafted comprehensive landmark 
legislation known as the Trafficking Victims Protection Act 
(TVPA).
    So many remarkable people did so much--too many to name 
today--to help shape that bill. Top staffers on my committee, 
Joseph Rees, who was our general counsel, and David Abramowitz, 
who will be speaking momentarily on the second panel on the 
Democrats' side, were extraordinary in helping to craft that 
bill. And I thank them, because this is an enduring legacy for 
the most vulnerable and the weakest among us. On the Senate 
side, people like Mark Lagon and other staffers also played a 
vital role. And, again, it was totally bipartisan over there, 
as well.
    As a direct consequence of the TVPA and faithful 
implementation of it since it was enacted, for the past decade 
the United States has led the world in combating modern-day 
slavery. Much has been done; much more remains to be done.
    Three Presidential administrations, one Republican and two 
Democrats, have vigorously sought to protect and rescue victims 
from being turned into commodities for sale. Three 
administrations have sought to punish traffickers with rigorous 
prosecutions and jail sentences, both here and promoting that 
abroad, commensurate with these heinous crimes. And in the last 
3 years especially, nations have been strongly admonished to be 
compliant with the law's minimum standards or face significant 
sanctions.
    Ambassador Mark Lagon did an amazing job at the TIP office 
under the Bush administration, as is Assistant Secretary Luis 
CdeBaca today under President Obama. The United States is, 
indeed, fortunate to have had and have individuals of their 
caliber, their competence, and their commitment leading the 
fight against trafficking.
    In 2010, the good news is that convictions are 
significantly up worldwide, as is the identification and the 
response to the victims: Shelters providing safe haven--and we 
are trying in this country to expand the shelters that are 
available, and the beds as well.
    As special rep for trafficking for the OSCE Parliamentary 
Assembly, I can also attest to the fact that significant 
progress has been made in many member states, including Bosnia, 
which I visited on several occasions. I have been to shelters 
in Sarajevo. And it was the focus of hearings we held, because, 
unfortunately, many of the peacekeepers and the police deployed 
there under the U.N. auspices were actually complicit in 
trafficking.
    Today, I would strongly urge Ambassador CdeBaca to 
undertake a comprehensive reassessment of at least two Watch 
List nations, China and India, for failing to meet the minimum 
standards prescribed in the TVPA and for not taking significant 
action to comply.
    I would respectfully ask that you undertake a serious 
analysis of the nexus between the PRC's barbaric one-child-per-
couple policy and its consequences on sex trafficking. I know 
Ambassador Mark Lagon began to speak about that during his 
tenure in office, and I think the evidence is absolutely 
compelling and grows worse by the day.
    This past Saturday marked the grim 30th anniversary of that 
anti-child, anti-woman policy. I would note parenthetically 
that more babies have been murdered by the one-child-per-couple 
policy, especially baby girls, than all the people slaughtered 
by Mao Tse-tung.
    China's one-child-per-couple policy has resulted in the 
worst gendercide in history. Today, the missing girls of China, 
a massive crime against young women, means that an increasing 
number of men simply cannot find wives to marry. Some Chinese 
demographers have stated, by the year 2020, 40 million Chinese 
men won't be able to find wives, having been killed by sex-
selected abortion, creating a colossal market for bride-selling 
and sex trafficking.
    Earlier this week, we heard in this room, at a Tom Lantos 
Human Rights hearing chaired by Ed Royce, we heard from three 
North Korean women who made it across the border into China, 
thinking they were finding some kind of refuge and some kind of 
hope going there, only to be trafficked. And one of the women 
told us that they are called ``pigs'' by the Chinese men who 
enslaved them. And because one of the particular women was 
beautiful--she is a model--she said, ``They called me the best 
pig''--so dehumanizing to that woman and to all women.
    Years ago, I held a hearing, also with North Korean 
refugees, and one of the women told us how she had made it 
across the border, first following her daughter. She was 
trafficked. When she and her other daughter--because news does 
not get back to the families; they were looking for her--they, 
too, were then trafficked.
    So this magnet that has been created by the one-child-per-
couple policy will only mean, going forward, that there will be 
more missing girls and a greater push by traffickers to bring 
women in.
    In India, it is very similar, although it is not a coercive 
population-control program, but unfortunately women are not 
treated with the same equality to which they are entitled, and 
sex-selection abortion is rampant there. Some years ago, the 
Human Population Fund actually did a study and suggested that, 
in India, there are missing at least 60 million girls due to 
sex-selection abortions. Again, a huge magnet in India, as 
well.
    And I would hope, Ambassador CdeBaca, that you will take a 
good, hard look at this nexus between this terrible crime of 
forced abortion and sex-selection abortion and human 
trafficking because it is only going to get worse.
    I yield back, and I thank the chairman for convening this 
hearing.
    Chairman Berman. Thank you very much.
    I am pleased to yield 3 minutes to the gentleman from 
California, Mr. Royce, the ranking member of the Terrorism, 
Nonproliferation<greek-l>, deg. and Trade Subcommittee.
    Mr. Royce. Thank you very much, Mr. Chairman. And thank you 
for calling this hearing.
    The issue that really strikes us is the explosion of human 
trafficking that we have seen over the last few years. It is 
the magnitude of this explosion. And I think the thing we all 
ask is, why isn't this getting the attention it deserves? Why 
isn't more being done to leverage against this? I want to thank 
the chairman for holding this hearing to do exactly that.
    I also want to thank Chris Smith for the legislation that 
he has offered up, that he has worked so hard to pass over the 
years in order to try to address this real travesty.
    My hope, coming out of this hearing, is that it will focus 
attention beyond the NGO community to the wider international 
community about the fact that something has to be done to 
address and stop these practices.
    And I think the State Department's report that it released, 
its annual Trafficking in Persons Report, in some ways, is a 
tool that we can use. It catalogs those human-rights abuses 
around the world. It was the first report to include the United 
States, and we are certainly not immune from this crime.
    That is evidenced by the arrest and conviction, for 
example, of a New Jersey woman who smuggled girls from West 
Africa to the U.S., forced them to work every day, 14 hours a 
day, in her hair salons without ever paying them. Thankfully, 
this trafficker now faces 27 years in prison.
    There are too many cases like that at home, but that 27-
year conviction sends a message to other traffickers that, here 
in the United States, we are serious about this and there will 
be serious consequences to trafficking.
    What we want to do is make certain that other nations also 
send that message, that there are serious consequences. In that 
respect, I am going to take a minute to criticize a portion of 
this TIP Report that falls short.
    I was disappointed to see that Cambodia was bumped up a 
level. It is no longer identified among the world's worst 
violators of human trafficking. In some ways, the 
administration has released the pressure on Cambodia at a time 
when the situation is really out of control.
    Put very bluntly, this is a slap in the face to the 
thousands of victims in Cambodia of this practice, because so 
many girls there continue to be forced into sexual slavery. You 
just saw the news report from ``Dateline.'' Many here who are 
involved in this issue or concerned and following this issue 
saw that report, where they say Cambodia continues to be such a 
magnet for people who prey on the young.
    There, children as young as 3 or 4 are sold to sex 
tourists. My own chief of staff traveled to Cambodia to work 
with some of the children just recently released from brothels. 
The stories that she relays to me were absolutely horrifying.
    Sadly, NGOs and eyewitnesses report that Cambodia's 
Government continues to hamper trafficking investigations and 
frequently covers up the problem. As a matter of fact, the 
government goes after people who bring up the problem in 
Cambodia.
    If I could ask for a few more minutes, Mr. Chairman.
    Chairman Berman. I ask unanimous consent to give the 
gentleman an additional minute.
    Mr. Royce. I would really appreciate it if you could, Mr. 
Chairman. Thank you.
    The corruption is endemic. Local police and government 
officials are often directly involved in the trafficking. They 
are pocketing profits as a result. We should not be elevating 
Cambodia on that report.
    Today we will also hear from one of our witnesses about 
trafficking in India, where caste-based discrimination against 
its Dalits results in millions of women and children being 
victims of human trafficking. Of the 3 million sex workers in 
India, nearly 40 percent are children, most are Dalits. The 
Indian Government has made recent efforts to protect Dalits, 
but, clearly, much more needs to be done to eliminate a very 
longstanding and entrenched practice.
    No country is immune from the problem of human trafficking. 
Only with increased accountability and honesty can we help some 
of the world's most marginalized people.
    I would like to thank the chairman once again for holding 
this important hearing.
    Chairman Berman. Thank you.
    The time of the gentleman has expired. The gentleman from 
Texas, Mr. Poe, is recognized for 1 minute.
    Mr. Poe. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    This issue thrives in darkness, and it is going to be, I 
hope, the goal of the United States to shed light on this 
human-trafficking nightmare, not only on the rest of the world 
but what takes place in the United States, as well.
    In my other life, I was a judge in Texas forever and saw 
the results of some of these issues. And I think, being from 
Texas, I have to keep it simple. There are three people 
involved in human trafficking, at least: First and foremost is 
the victim. And the young girl that is kidnapped and forced 
into slavery is not a criminal; she is a victim of crime. Then 
you have the customer who pays for this slavery. And then you 
have the trafficker. You got three entities.
    And, first and foremost, we need to regard the young 
woman--generally--as a victim and treat her as such. It is 
interesting, if we have a child brought into the United States 
that is trafficked here and she is rescued by the system, she 
is treated as a victim. If we have a child in Houston, Texas, 
that is trafficked to Los Angeles, that child is treated as a 
criminal. She is not rescued and put in some safe haven; she is 
put in the criminal justice system.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Poe. I thought I had 3 minutes. You just said a minute?
    Chairman Berman. I did just say a minute. You don't like 
that? Do you want to compromise at 2?
    Mr. Poe. I would ask permission----
    Chairman Berman. For an additional minute?
    Mr. Poe. Yes, sir. I will try to sum it up.
    So that is the first issue. We have to treat the person as 
a victim.
    The second guy, they need to be exposed, and we need to let 
the world know who they are. And if we capture them and they 
are prosecuted, let's put their photographs on the Internet so 
everybody knows who these people are.
    And then the last person, the trafficker, they need to be 
punished to the fullest extent. Even one case, I had a Texas 
Ranger tell me, ``Judge, when you get one of those in court, 
just get a rope.'' I am not so sure that that is really the 
answer, but we need to make sure that they are punished and 
that we also, then, control the visa system in this country 
where a person is an ex-con for child molesting and they leave 
our country, and the reason they are leaving is to go overseas 
and continue their evil ways, we need to make sure that you 
know, and the State Department, who these people are. And so, 
that is in a piece of legislation that is pending.
    But the United States is the leader in human rights, and we 
need to make sure that we continue to be the leader in human 
rights throughout the world. And we need to protect our young 
resources, young women here and abroad.
    Thank you, Mr. Chairman. I yield back.
    Chairman Berman. Thank you.
    The time of the gentleman has expired.
    It is now my pleasure to introduce our first panel, a panel 
of one. Ambassador Luis CdeBaca was appointed by President 
Obama to coordinate U.S. Government activities in the global 
fight against human trafficking. He serves as senior advisor to 
Secretary Clinton and directs the State Department's Office to 
Monitor and Combat Trafficking in Persons.
    Previously, Ambassador CdeBaca served as counsel to a 
committee that I am privileged to serve on, the House Judiciary 
Committee, and as a Federal prosecutor for the Department of 
Justice, leading investigations and prosecution of cases 
involving money laundering, organized crime, alien smuggling, 
official misconduct, hate crimes, and human trafficking.
    Ambassador, it is very good to have you with us. Your 
entire statement will be placed in the record. Feel free to 
summarize, and then we will go through a round of questions.

 STATEMENT OF THE HONORABLE LUIS CDEBACA, AMBASSADOR-AT-LARGE, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador CdeBaca. Thank you, Mr. Chairman.
    I would like to thank you, Ranking Member Smith, and the 
other members of the committee for convening this critical 
hearing on human trafficking and also for your support on this 
issue over the last decade and before, but, on a personal note, 
your support and leadership when I was a Judiciary Committee 
staffer working on this, intelligence, and other critical 
issues.
    Almost 150 years have now passed since the Emancipation 
Proclamation was issued, and slavery persists in many forms. In 
the 1910s, the focus in Congress and the Justice Department was 
against European women brought here for sex slavery. In the 
1930s, it was called peonage; it was U.S. citizens held in 
bonded labor in agricultural situations. The attention of the 
1990s: Again, European women and sex trafficking. The 
Trafficking Victims Protection Act of 2000 hopefully breaks the 
pendulum of attention and then inattention to this problem that 
we have so often seen in those 150 years.
    No matter the euphemism or the technical term or the 
technical label that we use, we are seeing things now that show 
how human trafficking cuts across these lines. We see victims 
held in servitude in factories, farms, and homes, bought and 
sold in prostitution and captured as child soldiers.
    We have come to understand that men comprise a significant 
number of victims but also see the feminization of modern 
slavery clearly demonstrated, with women making up a majority 
of those trapped in commercial sex as well as in forced-labor 
situations.
    Traffickers now are changing their method of control: More 
female recruiters, more subtle means of exploitation, greater 
psychological abuse. This crime impairs human rights, degrades 
public health, corrupts government officials, and weakens the 
rule of law.
    Not limited to one gender, faith, or geographic area, the 
universality of this crime is reflected in the bipartisan 
consensus around this issue. The U.S. Government's sustained 
application of the ``3-P'' approach of protection, prevention, 
and prosecution through three administrations now is evidence 
of this consensus and commitment. And so I am glad to not only 
have succeeded Ambassador Mark Lagon at the Trafficking Office 
but that we are both able to come before you today in the 
spirit of that shared commitment.
    So what is the Obama administration doing to fight modern 
slavery? I will certainly refer you to the much more fulsome 
version of this testimony that we are putting into the record, 
but there are a few things that I would like to highlight in my 
oral presentation.
    The annual trafficking report remains the United States' 
principal diplomatic tool to engage foreign governments on the 
issue of modern slavery, and we feel that it is the world's 
most comprehensive resource on anti-trafficking efforts by 
governments. It has prompted legislation, national action 
plans, and the implementation of policies and programs.
    We are committed to using the tools of the TVPA. And, 
indeed, Harold Koh, now the legal advisor at the Department of 
State, has in the Obama administration been a very supportive 
and strong voice for application of the minimum-standards 
rankings and sanctions analysis. What a different 10 years 
makes from the testimony that he was sent to give that Mr. 
Smith references.
    And so, what have we seen? While there is much to do, there 
are also many things that have changed for the better: A steady 
increase in sex-trafficking prosecutions and shelters for 
victims in Gulf states; greater efforts to address the forced 
begging of Koranic students in West Africa; passage of a law 
and formation of a national task force in Swaziland; cross-
border cooperation and joint law enforcement efforts with 
Mexico; a significant uptick of victim identification in 
Albania and Montenegro; the naming of the first TIP czar on the 
island of Malta; and greater anti-trafficking collaboration by 
the Malaysian Government with the U.S. Government and NGOs, 
which have led to new trafficking investigations and 
prosecutions.
    This litany would be impressive if it were the last 
decade's accomplishments. This is the last year.
    Bosnia, as Mr. Smith points out, we feel is a particular 
success story--on Tier 3 for many years, ravaged and plagued by 
sex traffickers and organized crime. But the government changed 
course and aggressively tackled the crime because of the 
leadership, not just of the United States, the TIP Report, and 
programs, but also the Helsinki Commission, the OSCE, and other 
structures that the U.S. Congress supports. After a decade of 
hard work, Bosnia is now a Tier 1 country and a model for other 
countries that can make that journey.
    We feel, as well, that the inclusion of the United States 
in this year's TIP Report, a testament to Secretary Clinton's 
insistence on partnership, provides such a model, as well, as 
we try to hold ourselves accountable to the same standards that 
we would expect of our foreign counterparts.
    The TVPA recognized that this was not just a foreign policy 
imperative but also a domestic law enforcement priority, as Mr. 
Poe points out, requiring attention at the local and State 
level and coordination and expertise across agency lines. And 
so the Interagency Task Force on Trafficking at the Cabinet 
level and its working group, which I chair, the Senior Policy 
Operating Group, were created to coordinate those interagency 
policies, programs, and planning issues.
    In the submitted testimony, we have a recitation of many of 
the things that have been done to coordinate, to implement the 
laws, the TVPA and its reauthorizations. And we would certainly 
call people's attention to that.
    One thing that I would like to bring up specifically, 
though, is one of the mandates of the Wilberforce Act, the 2008 
reauthorization. Responding to congressional concerns about 
guest-worker abuse, the State Department, with the Departments 
of Homeland Security, Justice, and Labor, consulting with 
nongovernmental organizations, developed an information 
pamphlet on the legal rights and resources available to aliens 
who are applying for nonimmigrant visas. The pamphlet is given 
to visa applicants in the consulates overseas, and they 
hopefully travel with them. It is in multiple languages.
    It has resulted in 148 calls to the national hotline this 
year. And, earlier this week, I heard from legal service 
providers who recounted that seasonal workers who had suffered 
in silence in previous years with the same employers, not 
knowing that they had rights in the United States, this year 
when they traveled had that pamphlet with them. And a number of 
calls to the hotline have resulted--workers who had not known 
of their rights or that there was somebody in the United States 
who would be willing to help them.
    That pamphlet was a direct result of the work of the 
members of this committee and the staff of this committee in 
that authorization and is much appreciated by those of us who 
are on the front lines.
    Going forward, in continuing the work of our predecessors 
in the Bush administration and the Clinton administration, the 
Office to Monitor and Combat Trafficking in Persons will 
continue to work with our interagency partners, State and local 
governments, and foreign governments to develop comprehensive 
anti-trafficking legislation to strengthen existing laws and 
train criminal justice officials to see victims as victims 
rather than merely illegal immigrants or criminals. We hope 
that this will lead to increased number of convictions for 
traffickers and complicit government officials, including 
military personnel and corrupt border officials.
    We hope to strengthen victim protection and assistance by 
encouraging cooperation between governments and NGOs and 
enhancing the capacity of civil society to provide 
comprehensive services that fully address the needs of the 
victims. And we will wisely stretch every appropriation that 
you give us to do that.
    We will support evidence-based research to evaluate the 
impact of our programs and to fill core data gaps so that we 
know that the money that we are spending on programs is well-
spent. And we will leverage those resources even more by 
working with the private sector to have innovative public-
private partnerships to solve this problem.
    Mindful of those who suffered and died in bondage 
throughout the history of this country, and heeding President 
Obama's call in January for a recommitment to this ongoing 
struggle, we will continue to promote a global movement to 
abolish modern slavery.
    I thank you for your important support of this issue, and I 
look forward to your questions.
    [The prepared statement of Ambassador CdeBaca follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Thank you very much, Ambassador.
    We will begin the questioning. It is the chair's intent, 
because we have two panels and have the Pakistani foreign 
minister coming to the committee at 12:30 p.m., to limit the 
questioning to 5 minutes and one round for each panel.
    I will yield myself 5 minutes to start.
    Your testimony does an excellent job of giving us an 
overview of accomplishments in the fight against trafficking in 
the last 10 years. I would be interested--you talked a little 
bit about looking forward in your general thoughts about the 
next decade in terms of the fight against trafficking.
    What is that going to look like? What should it look like? 
What are your key priorities? What particular countries do we 
need to put special emphasis on?
    Ambassador CdeBaca. I think that the thing that we will 
hopefully see in the next 10 years and that we are working 
toward is to remove this from being a boutique issue. In many 
ways, human trafficking has been the thing that is, kind of, 
done after everything else with the law enforcement community. 
It is, you know, working on trainings, working on rule of law. 
Whether we are doing development work or whether we are talking 
to our foreign counterparts, trafficking often is then a 
separate conversation.
    And I think that one of the things that we are working on 
that is very important to Secretary Clinton as well as to 
myself is to incorporate the trafficking office into the work 
of other parts of the Department, such as the INL and others, 
who have such an impact when they are doing law enforcement 
training, when they are getting that kind of mentoring and 
money out there.
    We have seen this now with the inclusion of trafficking in 
the Merida process with Mexico, standing up and supporting 
trafficking units with the Mexican Government. I think that 
that type of joint law enforcement is going to be very 
important.
    And we would like to support not just joint law enforcement 
where perpetrators are arrested both here and in the source 
country, doing that together, the way that we have done now 
with Mexico and Cambodia, but, in fact, have that become the 
international norm, especially countries that don't have 
extradition treaties with us, so that we know that the 
traffickers are being brought to justice.
    So, on the law enforcement side, that is, I think, our 
priority, is that kind of collaboration and cooperation.
    As far as victim protection, we are working, whether it is 
through international fora or otherwise, to make sure that 
victim protection comes to the forefront rather than being 
solely an adjunct to law enforcement, but rather that the best 
interests of the victim, the best interests of the child be the 
way that the governments look at this.
    We think that moving out of a detention-based approach to 
trafficking-victim care--a cleaner, nicer jail for trafficking 
victims is better than a dirty and bad jail for trafficking 
victims, but it is the position of the United States that there 
should be no jail for trafficking victims. And I think that 
that is something that we will see continue in the next decade.
    Chairman Berman. Thank you.
    Just to follow up, is there a thought about what to do with 
our missions abroad, in terms of prioritizing and training and 
educating them on things they can be doing, in terms of their 
agendas, that raise this issue?
    Ambassador CdeBaca. I think the leadership principle 
certainly comes into play. And one of the things that we have 
seen is that--and it doesn't mean that a good report comes from 
good activity, because it is up to the local government. But we 
have seen that, where a chief of mission is very engaged 
throughout the year, that the governments respond. We have seen 
with Ambassador Harry Thomas, for instance, in Manila, the 
level of engagement that he has brought with him as he has 
gotten his team in place is now being reflected back by the 
Philippine Government, and not just in words, but in actions.
    And so, that is something that we are encouraging with the 
outgoing chiefs of mission. We are working with them at the 
Foreign Service Institute and otherwise, so that they land with 
a bang. I think that we also, then, see training both for the 
reporting officers and for diplomatic security agencies as 
being critical.
    Chairman Berman. My time is about to expire, so I am going 
to yield 5 minutes to the gentleman from New Jersey, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Ambassador, again, thank you for your leadership and 
testimony.
    Let me just ask a couple of very quick questions. In my 
opening, I talked about India and China. Could you speak to 
those issues?
    Our hope is that they are on Tier 3. Vietnam ought to be 
added, as well. And you and I have a whole fact sheet on why 
Vietnam, particularly on labor trafficking, ought to be there.
    You know, last year, Fiji was--Fiji Islands--was Tier 3. 
When you look at the enormity, the scope, the government 
complicity in a place like China, or total indifference in some 
places, India as well--I mean, Mumbai has made some efforts, 
but it is far from effective--these countries need to be on 
Tier 3.
    What we do at the penalty phase--and I know there is a 
great deal of pushback within the building and from the 
missions abroad, from our ambassadors very often. ``Don't 
complicate state craft by injecting a human-rights issue of 
this caliber and weight.'' But, you know, we need to speak 
truth to power, not some of the time, but all of the time.
    So, please--and the nexus with the one-child-per-couple 
policy and sex-selection abortion, because it is only going to 
get worse. If you could speak to that and whether or not you 
would do a comprehensive study on that.
    Ambassador CdeBaca. Well, as Secretary Clinton has pointed 
out when talking about 21st-century state craft, state craft 
and diplomacy exists not to sustain itself but to convey our 
national interests and our national values. And so I think that 
is why we see the human-trafficking issue being something that 
we are raising at the highest levels of government and not 
shying away from those often uncomfortable discussions with our 
friends and allies.
    I will start with China. I, too, met with some of the North 
Korean refugees who were in town last week, and it confirmed 
what our reporting and other sources of information that are 
reflected in last year's report had indicated, which is that 
the vast majority of the women in northeastern China from North 
Korea appear to be trafficking victims. They are not recognized 
by the Chinese Government. To the degree they are, they are 
either seen as a source of low-level corruption, payoffs, or 
they are deported.
    One of the things that was troubling to me to hear from 
some of the women was that one of the only ways of escape was 
whether or not the clients, the men--South Korean men who use 
them for Web chat, sex chat videos, if they could get one of 
the clients to understand what had happened to them and have 
that man help them out. If the only way to escape from sex 
trafficking is to depend on the kindness of a customer, then we 
have a problem there.
    But we also see the reports in other parts of the country--
Burmese, Vietnamese, and other women trafficked across the 
borders for prostitution and brides--for the specific reason 
that you mentioned, as far as the population imbalance in 
China. And we are very worried about that, as well as the 
massive labor trafficking that occurs within the borders.
    We are heartened by the fact that China recently ratified 
the Palermo Protocol. But we think that, at that point now, 
they need to look at their domestic law to bring it into 
compliance with Palermo.
    Their definition of trafficking seems to be different than 
many. And you see these numbers about child-selling and false 
adoptions as what they seem to be wanting to work on. I will be 
going to China as a result in the coming month and beginning to 
have that conversation with them directly, because it is 
something that we feel we need to raise with them.
    As far as India is concerned, I have certainly raised this, 
not only with Ambassador Shankar, but also with the foreign 
minister, as has Under Secretary Otero, Secretary Clinton, Bob 
Blake. Assistant Secretary Blake cares very much about this. I 
think he saw it in his iterations in the embassies in the 
region, recognizes that the south and central Asia region is 
kind of a hotspot for a lot of this activity.
    We are heartened to see that India finally has 
characterized bonded labor as part of their trafficking fight 
in a communique to the field of last September. But bridging 
the Federal and state gap in India will be critical. You can't 
devolve power on such an important human-rights issue fully to 
the State and locals lest you do have simply those bright spots 
that we have identified, whether in Andhra Pradesh or in 
Mumbai.
    So we are working with the Indians to use our experience 
with federalism, use our fight as far as how we manage the 
interplay between local law enforcement and the Federal anti-
trafficking, as an example of how they can deal with that 
problem.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Green, is recognized for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. I ask unanimous consent 
to place my statement into the record.
    Chairman Berman. Without objection, it will be included.
    Mr. Green. Thank you for being here, Mr. Ambassador.
    One of the concerns--I mean, there are so many issues with 
trafficking in persons. One of the ones I am concerned about is 
forced labor and government contracts in conflict regions. The 
State Department's 2010 TIP Report includes a special section 
on government procurement of forced labor. It states that, 
``Too often, it is reported that workers, particularly in 
combat zones, have been misinformed about their contracts, 
poorly housed, had their passports confiscated, and were 
required to pay back large recruitment fees.''
    On January 15, 2010, the offices of the Inspector General 
for the DoD, State Department, and USAID each submitted the 
first of a series of congressionally mandated reports that 
evaluate the incidence of human-trafficking violations among 
U.S. contractors abroad.
    In your opinion, how serious is the problem of intentional 
or inadvertent government procurement or forced labor through 
contractors? And is the U.S. Government doing enough to address 
the problem?
    And second is, what has DoD, State Department, and USAID 
done since the issuance of the January 2010 OIG report to 
address reported trafficking among contractors?
    Ambassador CdeBaca. I think that is an excellent question, 
Mr. Green.
    The thing that we have started to realize is that 
government procurement strategies, whether it is for service 
contracts in many of these war zones or whether it is the 
things we buy, that we end up having a footprint that dwarfs 
that of the private industry that we go to to encourage to look 
at their own supply chains. And so, not only have we been 
responding to the concerns that were initially raised with 
peacekeepers coming out of Eastern Europe and have flowed 
through that, but also are starting to look at procurement on 
the Federal acquisition side.
    But as far as the overseas contractor issue, we are working 
with the inspectors general, convening meetings with the IGs 
from State, AID, and Department of Defense. They are going out 
into the regions, doing the samples of what they consider high-
risk offices. And, as you know from the report that was 
submitted in January, some areas of improvement were noted, 
especially with people not knowing what the rules were, not 
knowing what constituted trafficking and forced labor.
    We have taken one beginning step on that, as far as U.S. 
employees who are under chief-of-mission authority now, under 
the Foreign Affairs Manual, have heightened responsibilities 
for not mistreating their staff, and not only are reminded that 
they could be prosecuted back here in the United States, but 
also will have administrative punishments if they are caught 
doing that. We now need to take that out to the contractor 
level.
    And I think that one of the things that is heartening for 
us in the interagency is that the Senior Policy Operating Group 
has now put together a working group on this contracting issue 
and the acquisitions manual, led by DHS--which also has a large 
footprint--DoD, and the EEOC. And their convening started after 
the last meeting of the interagency quarterly working group. We 
are going to be working with the Acquisitions Contractor 
Training Corps to make sure that the training officers get this 
out there.
    One of the things that the IG found that was shocking to 
everybody was that a lot of the contracting officers just 
aren't even putting this into the contracts. It is required. It 
is required because it is the right thing to do, but it is also 
required because Congress mandated it. And, yet, there are too 
many contracts where this just doesn't even show up.
    Mr. Green. I appreciate that effort, because that is 
something, obviously, since we are paying the bill, we ought to 
be able to deal with it. And that is something our government 
can do directly.
    So thank you, Mr. Chairman.
    Ambassador CdeBaca. I would also note, if I may--and this 
is the intersection of policy and art that we often see and 
hear in this area. The big, hot film at the Toronto Film 
Festival in the last 2 weeks was about a whistleblower, a woman 
who had called attention to these exact problems during the 
Kosovo intervention. I think that the more that we see the 
public look at this as a problem, the more we will be able to 
drill that out into the agencies.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Royce, is recognized for 
5 minutes.
    Mr. Royce. Thank you, Mr. Chairman.
    I ask unanimous consent to enter into the record a 
statement of our ranking member, Ileana Ros-Lehtinen.
    Chairman Berman. Without objection, that statement will be 
included in the record.
    [The prepared statement of Ms. Ros-Lehtinen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Royce. Thank you, Mr. Chairman.
    By way of further information, this is a trafficking 
symposium that she and Ambassador CdeBaca held at St. Thomas 
University in Miami, Florida, 2 weeks ago.
    So, thank you, Mr. Chairman.
    I wanted to ask about the justification of Cambodia's 
promotion to Tier 2 status. As you go through the TIP Report, 
the point is you have 36 traffickers who were convicted, in 
comparison to 11 last year, and that is the argument.
    But you read the report, and the report says that local 
police and government officials extort money or accept bribes 
from brothel owners sometimes on a daily basis in order to 
allow brothels to continue operating. In terms of the appeal 
court judge there, the appeal court president, he accepted 
$30,000 in bribes for the release of brothel owners.
    The corruption is absolutely endemic. The point I would 
make is that the conviction of 25 extra traffickers hardly 
justifies moving in the wrong direction when Transparency 
International now rates Cambodia 158 out of 180 in its 
corruption index.
    The point I am making is that the corruption is so endemic 
there and the Cambodians that we talk to and the NGO groups are 
so traumatized by the fact that things are imploding so quickly 
in terms of the absence of any rule of law and the fact that 
the police are in on the corruption, and these girls at the age 
of, what, 3, 4 are being recruited in larger and larger 
numbers.
    The point they make is that maybe this was a mistake, to 
tick this down the other direction. I would ask you for your 
observation on that.
    Ambassador CdeBaca. It is tough, and I think especially in 
a country like Cambodia where there are these problems.
    One of the things that we look at when we are looking at 
the ranking is what kind of effort the country has made and is 
making. This is one of the minimum standards that is mandated. 
And we had seen a shift in the willingness of the government to 
work on this, an uptick in prosecutions, a use of the anti-
trafficking unit in a different way, not just simply going out 
and doing blind sweeps of the red-light district and then 
calling that a trafficking case, but instead more long-term 
investigations, working with some of the NGOs, like APLE, A-P-
L-E, that does a lot of the child sex tourism investigations 
and child protection.
    So, too, we have also seen a little bit more law 
enforcement cooperation with the United States, as far as not 
simply helping arrest our pedophiles so that we can then bring 
them back to the United States, or the Swiss or the German 
pedophiles so that they can be prosecuted in the home country, 
but then also stepping up and prosecuting the Cambodians who 
sold those children. That was something that Cambodia had 
always refused to do in the past, largely casting this as a 
problem of westerners coming to abuse their children.
    So I think that, for me, that is one of the things that we 
see that is a bright spot, is their recasting and looking at 
trafficking in a new way.
    The proof is in the pudding, though. And I think that, 
unfortunately, Cambodia is a country where we have seen--and in 
the report we always have the chart about what a country has 
done over the years. It has gone up and down and up and down. 
We would like to see Cambodia get on a glide path of success, 
but, given the endemic corruption, given the poverty, given the 
breakdowns in rule of law, it is very difficult.
    Mr. Royce. We have seen other countries take similar 
measures and they have still been downgraded, unlike Cambodia. 
Yemen would be a case in point. They are taking these measures, 
but the argument is it is so endemic in Yemen that we are not 
going to adjust that.
    The point I am making is, if they don't face sanctions, if 
there aren't consequences, then when you have a police 
department that is in on a racket, when you have appeals court 
judges that are part of the problem, and when you have a 
political class that is involved in this, then the situation is 
only going to get worse. As ``Dateline'' says, it is now a 
magnet for pedophiles. It needs to be addressed.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you so 
much for having this hearing on such an important topic.
    I also would ask unanimous consent to enter my statement 
into the record.
    Chairman Berman. Without objection, it will be included.
    Mr. Connolly. I thank the chair.
    Let me just say--Mr. Ambassador, thank you for being here. 
I cannot imagine a more heinous crime than the denial of human 
autonomy. Because to do that is to say a human being is a 
thing, an object.
    And in making sure that this is a priority for U.S. foreign 
policy, we need go no further than our own American history. We 
fought a civil war over the issue of human autonomy. Well, 
there are some revisionists that want to pretend it wasn't 
about slavery. From first to last, it was about human 
trafficking because there was a whole philosophy that said 
someone of color was a thing, an object. We fought a civil war 
to settle that question. And after that civil war, we no longer 
spoke of ``these United States'' in the plural; we spoke in the 
singular case, ``the United States is.''
    There can be no more fundamental American value than the 
assertion of human autonomy. In our own Declaration of 
Independence, Thomas Jefferson wrote that among these 
inalienable rights were life, liberty, and the pursuit of human 
happiness--strange one.
    And, therefore, it seems to me, from the wellsprings of our 
own founding, human trafficking--putting an end to human 
trafficking, insisting with other governments that they move 
this way up on the priority list and making sure our 
ambassadors and our representatives do the same is fundamental 
to who we are and to American character. So my question to you 
is candidly, how do you think we are doing? I mean, I have 
traveled widely. Ambassadors have full plates. There are lots 
of competing priorities. I mean, there are military, 
political--I understand. Not everything can be a priority 
because if everything is, nothing is. But I am concerned that 
it is possible that unless we ratchet up the importance of the 
subject, a busy Ambassador may--it may be further down the list 
of priorities but not his or her top five or three.
    I would like your assessment of how well we are doing and 
what kind of mechanism do we have to make sure that the 
prioritization of this issue, as very fundamental to who we 
are, is impressed on new and reassigned Ambassadors?
    Ambassador CdeBaca. I will be going this afternoon to an 
event that the Mount Vernon Ladies' Association and the Mount 
Vernon Black Women's Association will be jointly hosting that 
draws the exact parallel.
    Mr. Connolly. In the 11th District of Virginia.
    Ambassador CdeBaca. I try to stay in the area. And I think 
that one of the things that is being talked about at this 
conference is how we have to capture that exact promise, the 
promise that was made to the people who were in chattel 
slavery, but also the promise that was made to those who were 
being held in indentured servitude, debt peonage. The first law 
that Congress passed when it came back in 1866 was to extend 
those protections to the Hispanic residents of the former 
Mexican territories.
    Made it very clear that the promise of the 13th Amendment 
applied to anyone in the United States, whether it was the 
newly freed African American population or the newest arrival. 
And that is as true today as it was almost 150 years ago.
    I actually think that the 150th anniversary of emancipation 
gives us an opportunity, an opportunity to tell our story to 
the world.
    Mr. Connolly. I have to interject, I have 43 seconds. How 
are we doing?
    Ambassador CdeBaca. How we are doing is that I think we are 
seeing in many ways the antislavery and anti-trafficking fight 
through the lens of the TIP Report and the lens of the TIP 
reporting, rather than necessarily seeing it through the lens 
of the overarching American value system. And I think that is 
something that we need to work on internally so it is not 
merely a ``We have got to do the TIP Report this year and 
everything flows from that.'' Rather it is ``Here is this value 
that our country was born upon.''
    The last 10 years have been a critical time in this fight, 
but they are a critical time because they are modernizing that 
promise that we made so long ago.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Texas is recognized for 5 full minutes.
    Mr. Poe. Thank you, Mr. Chairman.
    Four of the worst abusers are Burma, Cuba, Iran and 
Zimbabwe, according to our own government. But yet they still 
have the ability to receive aid from the United States. We call 
it humanitarian or whatever. But how do we know that that aid 
is going to the right people in those countries?
    The only leverage we have to get people's attention is the 
almighty dollar. And if we quit giving them money, maybe they 
will get their country in order and quit promoting human 
trafficking or allowing it to exist. And this has to be an 
issue that the United States leads in. We can't stick around 
and wait for the United Nations to do anything, because so many 
people in the United Nations are abusers of this whole process.
    So I don't think we ought to be giving aid to any country 
that promotes human trafficking, especially when we say they 
are the world's worst abusers. It doesn't make any sense to me. 
I would like you to clarify that.
    But first, I have introduced legislation, along with my 
friend, Jim Costa--we are both co-chairs of the Victims' Rights 
Caucus--to require people who have gone to our own 
penitentiaries for sexual assault, primarily of minors, if they 
travel abroad, they have to register with the State Department, 
and then the State Department has the authority, discretion, 
not to allow them to travel overseas.
    Now, Ambassador, it is my understanding, and I would like 
an answer to this, that throughout the world, these middle 
guys, the customers, you know, the people that pay for the 
slavery, 25 percent of them are from the United States and they 
leave the United States to go abroad to seek out young children 
to have their way with them, and that is a blight on our 
country.
    So what do you think about the issue of making sure that we 
know who these folks are when they come to see you and they 
want to travel abroad, not necessarily to do business but to do 
monkey business? What do you think about that?
    Ambassador CdeBaca. A lot of the equities in that bill--and 
I know there are other similar bills as well--are actually 
things that are in some other parts of the State Department, 
and I don't really want to speak for them.
    As far as the trafficking office is concerned, I think one 
of the things that we find is critical, and it is one of the 
things that we judge a country on, is what they are doing to 
reduce the demand for child sex tourism in many ways. That can 
be everything from the posters that one would see or training 
for hoteliers to make sure that the concierges and the front 
desk aren't collusive in bringing in these kids.
    But what we see as reducing demand the most effectively is 
prosecuting these pedophiles, prosecuting the people who would 
sell a child to them. As far as the various restrictions on 
travel, again, I know that there are several different pieces 
of legislation out there.
    One thing, though, that we have noticed as we have tried to 
look at this, especially in demand reduction for commercial sex 
with children, is that oft-repeated 25 percent figure comes 
into question a bit when one looks at the high percentage of 
Asian clients that are abusing children all over Asia.
    Mr. Poe. What is your opinion? Is it 25 percent, is it 
less?
    Ambassador CdeBaca. I don't think we really know the actual 
number, but if you talk to police, again, and to the Cambodian 
example that Mr. Royce is concerned about, if you talk to the 
police and to activists in Cambodia, the unnoticed plague seems 
to be coming from Japan, Korea, China, et cetera.
    And so I think that we need to make sure that we are 
focusing not simply on the Westerners in these countries, but 
other sex tourists as well, and harness those countries so that 
they start doing what we do, which is prosecute their people 
back home. We have a number of countries that don't expand 
extraterritorial jurisdiction over their traveling pedophiles, 
and I think that that is a U.S. practice that we need to export 
to the rest of the world.
    Mr. Poe. Last question. It just seems to me--and correct me 
if it is wrong--I am wrong--that countries are just kind of 
resistant to doing anything about this issue. And that is the 
sense I have based on your testimony and what I have heard from 
other people that, just, you know, that is not really something 
they want to get involved in for whatever reason; is that 
correct or not?
    Ambassador CdeBaca. It is correct to some degree. I think 
that there are a number of countries that when they start to 
be, frankly, embarrassed in the international community, they 
don't want to be the country that is behind their neighbors, 
and they don't want to lose aid. So we have seen, for instance, 
in The New York Times about 3 weeks ago, the President saying 
it was the U.S. coming to them that made them act.
    Mr. Poe. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentlewoman from California.
    Ms. Watson. Thank you, Mr. Chairman. I ask permission to 
submit my statement for the Record.
    Chairman Berman. Without objection, so ordered.
    Ms. Watson. Ambassador, there are differences in the 
definition of trafficking in persons between the U.S. and the 
international community. For example, the U.S. definition omits 
the removal of organs and makes a distinction between 
prostitution and sex trafficking. Can you explain these 
differences and can you outline the implications and how do 
these differences inhibit the effective coordination between 
nations?
    Ambassador CdeBaca. I will start with the second one and 
then move backwards.
    Ms. Watson. Thank you.
    Ambassador CdeBaca. The U.S. definition, which has severe 
forms of trafficking being the parts of the trafficking fight 
that is based on the 13th Amendment's prohibition against 
involuntary servitude and slavery, is focused upon the 
involuntary servitude nature of what is being done. So whether 
that person is being held in compelled service for sex or for 
labor, they are considered to be a trafficking victim under the 
13th Amendment analysis.
    The Vienna negotiations for the U.N. Protocol, the 
exploitation of the prostitution of others, which is the way 
that the Palermo Protocol deals with the prostitution, the 
countries that have used that verbatim in their laws tell us 
over and over again that they see exploitation of the 
prostitution of others the way that we use the words ``severe 
forms of trafficking.''
    So it is not that they are saying that it is having a 
prostitute, it is exploiting the prostitute. So on that issue, 
even though the words are dissimilar, the concept of the person 
who is being held in compelled service ends up being the same.
    Where there is that difference is when it comes to the 
organ trafficking. The United States has interpreted the organ 
trafficking portion of the Palermo Protocol to criminalize 
those who would traffic a person in order to harvest their 
organ. Some countries are looking at it more expansively and 
looking at the trafficking in the organ itself.
    And so if we had somebody who, you know, cases where 
somebody was being held in servitude to have parts harvested, 
that would be a slavery situation, that would be a trafficking 
case.
    We have tried to explain to other countries, when they 
proffer their organ trafficking policy as something that meets 
our minimum standards from the TVPA or the Palermo Protocol, 
the difference between that thing, the liver or the kidney, 
what have you, and the person whose freedom is being denied 
them for the harvesting, that that is at the heart of the 
distinction that we make. It is the difference between slavery 
and illicit transport of a piece of contraband.
    Ms. Watson. Since you mentioned the purpose of trafficking 
in terms of organs and so on, do the countries see this kind of 
thing as a felony offense? Because certainly harvesting these 
different organs can certainly affect the health of a human 
being and can lead to a fatality. How do you make the 
difference?
    Ambassador CdeBaca. Unfortunately, one of the things that 
we have seen is there has been more action kind of at the U.N. 
Conference-going level than there has been at the law 
enforcement level. And I think this is one of the things that, 
you know, we have heard a lot about the trafficking of organs, 
but we haven't seen much law enforcement activity against it; 
one big exception being the case here in the United States, 
here in the United States in New Jersey, with some folks who 
are doing some illicit organ trafficking. It is actually one of 
the few criminal cases that have been done out there, and that 
was a felony charge in that case.
    Ms. Watson. Since my time is almost up, do the other 
countries, the countries most involved in sex trafficking, 
organ trafficking, and so on, do they make a distinction and do 
they penalize people according to whatever the definitions are?
    Ambassador CdeBaca. It is a little up in the air. Many of 
the countries have criminal law that simply tries to mimic the 
Palermo Protocol. Many of them are now changing that to 
something that is more closely related to the U.S. law, because 
the Palermo Protocol itself doesn't necessarily work in a 
courtroom.
    Ms. Watson. Thank you.
    Chairman Berman. The time of the gentlewoman has expired.
    The gentleman from New Jersey, chairman of the African and 
Global Health Subcommittee, Mr. Payne, is recognized for 5 
minutes.
    Mr. Payne. Thank you very much. The case that you talk 
about in New Jersey with the trafficking of organs, as you 
know, is still ongoing. It was very shocking, the complexity of 
the case of immigrants coming over, predetermined that, you 
know, their organs would be sold as a part of their coming into 
the country. So we hope that the prosecution will really 
convict these people in this heinous crime.
    The fact that it is very difficult, according to a 2007 GAO 
report on human trafficking, concluded that U.S. Federal law 
enforcement agencies would benefit from improved interagency 
cooperation on investigations and prosecutions for trafficking 
crimes, including cooperation between Federal, State, and local 
enforcement elements. And I am sure that in law enforcement in 
general, this is not a new problem. It permeates the system.
    But if, as the 2007 GAO report indicated, the U.S. 
Government is having trouble with law enforcement coordination 
on human trafficking crimes, what can we reasonably expect from 
other countries which have fewer resources, fewer support and 
capabilities than what the U.S. have in combating? Have we 
tried to work with them, or is it possible to have an 
interagency cooperation?
    Ambassador CdeBaca. The GAO report was certainly correct. I 
think you are dead-on as far as seeing that as a problem in 
many of our law enforcement areas. One of the things that we 
have seen and that we are trying to mirror in this important 
civil rights crime is the experience that we had during the 
expansion of the hate crime laws in the 1990s where we realized 
that Federal hate crimes enforcement would never be able to 
capture the scope of hate crimes in the United States.
    And so States started passing hate crime statutes, 
enlisting State and local law enforcement, and culturally State 
and local law enforcement were finally ready for that. You 
started seeing State and locals in places where the Feds had to 
be the only game in town, because the local sheriff may have 
been part of the Klan that was being investigated a generation 
ago.
    We see the same thing happening in the human trafficking 
field, with all but 4 of the 56 States and territories having 
passed anti-trafficking legislation. That training is now 
getting out into the field, and we are starting to see more and 
more State cases. So we are glad that we don't have all of our 
eggs in that Federal basket.
    Taking that, then, and looking at the rest of the world, 
many of the countries that we are dealing with don't have that 
Federal system.
    There was a bilateral agreement that the Clinton 
administration entered into with Italy back in--and I want to 
say 1998--where the folks from the State Department came back 
from that meeting, having agreed with the Italians that certain 
questions would be asked of victims when they were encountered. 
The Italians, because everybody in their system reports to the 
Justice Minister and the Interior Minister, within a week or 
two, they had all of that information out into the police 
forces around Italy, more than 300 cases as a result.
    Our State Department folks came back, came over to the 
Justice Department and said, Okay, now order everybody to do 
this. And there are 17,000 independent police forces around the 
country that do not take orders from the Attorney General, as I 
think Eric Holder can attest to.
    So it ends up being much more of the cultural shift that we 
have to have here in the United States, through the long-term, 
hard-core police training, policemen and prosecutors who do 
these cases getting promoted. Hopefully that ends up reflecting 
society's wishes more than something that comes down from on 
high.
    So the types of police training, the types of structures, 
the task forces, et cetera, that we have put in place to try to 
increase that coordination, we are now taking and replicating 
those in other countries. And the countries that have stood up 
their own anti-trafficking units and had that kind of 
coordination are starting to see an impact.
    Mr. Payne. Well, I think my time has about expired, so 
thank you very much.
    Chairman Berman. The time of the gentleman has expired.
    Ambassador, it has been wonderful to have you here. Thank 
you very much for not only your testimony here, but what you 
are doing in your position, and we want to support you.
    We are now pleased to have a second panel and if they could 
come up and take their seats. We do have a slight logistical 
problem. We really have to adjourn this hearing no later than 
12:20 p.m. or so.
    I will begin the introductions. David Abramowitz is the 
director of policy and government relations at Humanity United 
where he leads outreach efforts to the U.S. Government, 
multilateral institutions, and international NGOs and provides 
strategic counsel and advice to a broad range of grantees.
    Previously, Mr. Abramowitz served as chief counsel for this 
committee, where he worked on the Traffic Victims Protection 
Act, among many issues. He also worked at the Office of the 
Legal Adviser in the State Department.
    And I just have to add, on a personal note, that as we have 
recessed our session until after the election, we come to a 
lame-duck session and people talk about what is the agenda in 
the lame duck. I have watched Mr. Abramowitz take the William 
Wilberforce Act, the reauthorization of the Trafficking Victims 
Protection Act, and knock himself out, working with friends and 
collaborators in the other body, to produce a piece of 
legislation when no one thought he had chance of doing it. This 
is a tribute to his commitment to this issue. We are really 
pleased to have him back here testifying on a subject he has 
demonstrated over and over again he cares greatly about.
    Ambassador Mark Lagon is chair of the International 
Relations and Security Concentration and visiting professor in 
the Master of Science in Foreign Service Program at Georgetown 
University. He is also adjunct senior fellow at the Council on 
Foreign Relations.
    Ambassador Lagon served as director of the Office to 
Monitor and Combat Trafficking in Persons at the U.S. 
Department of State from 2007 to 2009, as Mr. Smith mentioned 
earlier. He also served as Deputy Assistant Secretary of State 
for International Organization Affairs and on the staff of the 
Senate Foreign Relations Committee, where he was involved in 
these issues.
    Dr. Aruna Uprety is the founder of the Rural Health 
Education Services Trust in Nepal. In 1995, Dr. Uprety began 
working with the American Himalayan Foundation on the problem 
of young girls in rural Nepal being trafficked to India. In 
addition to her work with the Rural Health Education Services 
Trust, Dr. Uprety also serves as a consultant to the United 
Nations.
    You came a long way and we are very honored that you could 
be with us today.
    Neha Misra is the senior specialist for migration and human 
trafficking at the Solidarity Center, AFL-CIO, an international 
workers rights NGO, based in Washington, DC. Previously, Ms. 
Misra was the deputy country director and program manager for 
the Solidarity Center's Countertrafficking in Persons project 
in Indonesia. Before her assignment in Indonesia, she worked in 
Bosnia and Herzegovina on postwar elections in democracy, and 
as a senior attorney adviser with the U.S. Department of 
Justice.
    Dr. Beryl D'souza heads the Health Care Initiative of the 
Dalit Freedom Network and Operation Mercy India Foundation. 
Concerned with the issue of human trafficking and HIV/AIDS in 
India, Dr. D'souza works with Dalit activists and international 
medical professionals to improve the health and well-being of 
the Dalit people.
    You also have come a long way.
    So I thank all of our witnesses. Mr. Abramowitz, why don't 
you begin with testimony? Your entire statements will be 
included in the record, and it would be great if you can 
summarize them and then we will have questioning.

   STATEMENT OF MR. DAVID ABRAMOWITZ, DIRECTOR OF POLICY AND 
             GOVERNMENT RELATIONS, HUMANITY UNITED

    Mr. Abramowitz. Thank you, Mr. Chairman, and Mr. Royce, and 
other distinguished members of the committee. Thank you for 
holding this very important hearing on the global fight against 
trafficking.
    My ears were burning with both Mr. Smith and yourself, Mr. 
Chairman, talking about the work that I did. I happen to know 
that Doug Anderson, who is also sitting in the room, was there 
from the beginning on the TVPA, working with Joseph Reese and 
myself, and I think that should be noted.
    At the end of the day, I remember any number of 
conversations that I had with Mr. Smith when he was the lead on 
some of the Trafficking Victim Protection Reauthorization Acts, 
as well as the act itself.
    With you, Mr. Chairman, I have to say that despite the hard 
work that we all did at the staff level, at the end of the day 
I think these things wouldn't have happened without you. I 
think you should be very proud of the work that you have done 
and the accomplishments that came from it, as Ambassador 
CdeBaca was discussing.
    It is a privilege for me to return to the committee in my 
new role as director of policy and government relations at 
Humanity United, a philanthropic organization that works to 
advance human freedom by combating modern-day slavery and to 
build peace and prevent conflict.
    Mr. Chairman, as described in my written testimony, and as 
you recognized in your opening statement, trafficking continues 
to inflict suffering on tens of millions of people around the 
globe, including here in the United States, and may even have 
undergone a surge during the current global economic downturn, 
as I think Mr. Royce was suggesting in his opening statement.
    Every victim of human trafficking, whether laboring in the 
fields where our food is grown, or in the streets where U.S. 
youth is sexually exploited, deserve the freedom to be a 
survivor.
    Mr. Chairman, at Humanity United we believe there are 
solutions to these heinous abuses but that they require a unity 
of effort between civil society, which can work directly with 
survivors; the private sector, which can ensure supply chains 
are slave-free; and governments which can implement policies to 
help end this scourge.
    In that regard, Mr. Chairman, the Trafficking Victims 
Protection Act of 2000, or TVPA, and its various 
reauthorization acts, establish a powerful framework for the 
United States which, as Mr. Smith noted, has been implemented 
vigorously by three administrations under Presidents from both 
political parties.
    In particular, the Trafficking in Persons, or TIP Report 
mandated by the TVPA, has been a tremendous tool for catalyzing 
changes. As again Mr. Royce noted, it has been an important 
element of our diplomacy.
    I ask that a document demonstrating how the TVPA has 
fostered real change, which was compiled by the Alliance to End 
Slavery and Trafficking, or ATEST, be entered into the record.
    Chairman Berman. It will be included by unanimous consent.
    Mr. Abramowitz. Mr. Chairman, as reflected in my written 
testimony, this year's TIP Report shows a dynamic analysis of 
trends in human trafficking. Countries continue to be 
downgraded as well as upgraded, and several key countries 
remain on Tier 3 and therefore subject to sanctions.
    The overall assessment of U.S. performance on the 
international front, however, remains an unfinished story. My 
written testimony raises a number of concerns, including the 
following.
    First, we need to continue to ensure that the TIP Report 
focuses on trafficking into both sexual and labor exploitation. 
This year's report continues the longstanding trend toward 
focusing a bit more on trafficking into labor exploitation. Yet 
I believe the report needs to capture more fully, for example, 
the risk facing women and children who migrate for legitimate 
labor purposes but end up being exploited sexually as well.
    During my trip to Nepal last week, activists suggested that 
as many as 90 percent of women and girls who have migrated from 
that country face such dual exploitation. I was encouraged that 
Ambassador CdeBaca alluded to these phenomena in his testimony 
today.
    Second, the administration needs to ensure continued high-
level support for U.S. diplomacy on trafficking issues. Making 
a difference in primarily difficult cases laid out in the TIP 
Report will require high-level diplomatic intervention. For 
example, will human trafficking be raised at or around the 
President's summit with Prime Minister Singh of India later 
this year?
    Mr. Chairman, I cannot emphasize too much the importance of 
combining the TIP Report with robust diplomacy. Earlier this 
month, as Ambassador CdeBaca alluded to, Senegal successfully 
completed a first-ever prosecution of those who were benefiting 
from child begging, and Senegalese officials specifically 
stated that this prosecution occurred as a result of the TVPA.
    I believe the testimony from all members of this panel 
suggests that U.S. diplomacy needs to move toward encouraging 
better implementation of local statutes and rule of law in 
order to make a real dent in human trafficking, a view I 
strongly endorse.
    This committee also has an important role in this effort. 
Every subcommittee should ensure that human trafficking is 
raised when assistant secretaries from regional bureaus of 
State come to testify before them, so that those responsible 
for day-to-day relations in the Department are sensitized to 
the importance of this issue.
    Third, you should keep an eye on diverging approaches to 
trafficking within the U.S. Government. One of the reasons that 
it may appear that there is more focus on trafficking into 
labor exploitation is continuing differences in the executive 
branch on how to approach this issue. And I go into that more 
in my written testimony.
    Mr. Chairman, this debate is distracting government from 
its real work and should be resolved.
    Fourth, Mr. Chairman, as I laid out in my written 
testimony, you should ensure that the TIP Report is not merged 
with other human rights reports. I am happy to discuss that 
with you during the question-and-answer period.
    Finally, Mr. Chairman, my written testimony has a number of 
additional suggestions regarding how U.S. law could be improved 
in the reauthorization bill the committee will consider next 
year.
    Let me just highlight one at this point. The U.S. should 
enhance civilian protection in humanitarian crises to prevent 
trafficking when the vulnerable population often increases. I 
think this really goes to the point that Ambassador CdeBaca 
raised about taking trafficking out of being a boutique issue 
and bringing it into the mainstream.
    In particular, Mr. Chairman, I believe the committee should 
support create an emergency response fund for the TIP Office 
that can be programmed as needed.
    This was demonstrated most heavily this year after the 
Haiti earthquake. Rather than robbing Peter to pay Paul to 
address such urgent needs, an emergency fund should be 
established to deal with such unanticipated humanitarian 
crises. The Senate Appropriations Committee actually took a 
good first step this year by including language on this matter 
at the request of Senator Kerry. Institutionalizing such a fund 
in TVPA could be an important contribution to saving lives.
    Mr. Chairman, the voices of the victims and survivors of 
human trafficking are indeed heard all too often from the 
shadows. We in civil society will work with you and this 
committee to ensure that we stay on the path to eradicating 
modern-day slavery and advancing the cause of human freedom.
    Thank you Mr. Chairman, and I stand ready to answer your 
questions.
    [The prepared statement of Mr. Abramowitz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Berman. Thank you very much, Mr. Abramowitz.
    Ambassador Lagon.

STATEMENT OF THE HONORABLE MARK P. LAGON, CHAIR, INTERNATIONAL 
 RELATIONS AND SECURITY CONCENTRATION, AND VISITING PROFESSOR, 
     EDMUND A. WALSH SCHOOL OF FOREIGN SERVICE, GEORGETOWN 
                           UNIVERSITY

    Mr. Lagon. Thank you, Mr. Chairman, Mr. Royce and members 
of the committee for inviting me to testify on a very important 
subject, the slavery of today. I want to note that the 
committee for years has been addressing the highest imperatives 
of human rights that transcend partisan lines, and if it 
weren't for members of this committee, such as the 
indefatigable Mr. Smith, there wouldn't be a Trafficking 
Victims Protections Act or a TIP Office, so thank you.
    On its page 7, the latest TIP Report estimates that there 
are 1.8 trafficking victims for every 1,000 people in the 
world, and that is based on very conservative ILO estimate of 
12.3 million victims globally, less than half of the estimate 
of scholar Kevin Bales. So, think about it. At least 1 out of 
every 555 people in the world today is a human trafficking 
victim.
    I would like to comment on a couple of patterns today in 
the world, 10 years after the TVPA, the creation of the TIP 
Office and the Palermo Protocol, and then I would like to offer 
recommendations in four key areas of action.
    The first trend that I want to highlight relates to rule of 
law. The main tangible impact of the TVPA, the TIP Office, U.S. 
diplomacy, and the Palermo Protocol have been passage of new 
laws addressing human trafficking in well over half the 
countries of the world. Yet rule of law consists in so much 
more than law on the books, whether in the United States or in 
the least-developed countries.
    The TIP Report documents 7,992 prosecutions in the whole 
world in 2003, and then down to 5,506 prosecutions in 2009. And 
of those 5,506, only 432 were for labor-related trafficking. 
Prosecutions are limited. They are down from a few years ago 
and they are minimal for nonsexual exploitation. If we are to 
be plain, lots of effort is not apparently moving the needle of 
change a great deal. We need implementation of rule of law.
    Secondly, I am often asked where are the most significant 
places in the world for the human trafficking problem. One 
answer is India because, of those 27 million people, Kevin 
Bales estimates, who are trafficking victims in the world, some 
two-thirds are there, chiefly in bonded labor.
    China is another answer, due to migrating workers without a 
safety net; a female deficit, as Congressman Smith referred to; 
a wild-west kind of sex trade; official discrimination against 
Uyghurs and Tibetans; and a failure to treat North Koreans 
fleeing atrocious political and economic conditions as 
refugees. East Asia is of particular concern because it is a 
focus of both labor and sex-related trafficking.
    And, finally, the Gulf is a major flashpoint because if you 
are a woman or if you are a foreign guest worker, or worst of 
all, if you are both, you are likely to be treated as a lesser 
human in the Gulf.
    But despite all of these flashpoints and foci of 
trafficking, there are no lesser victims of trafficking. So I 
see another pattern 10 years after the TVPA, which contributes 
to the needle not moving as much to abolish slavery. It is the 
fissuring of efforts, the siloing of focus on particular 
groups. For instance, victims of forced labor are no less 
important than victims of sex trafficking and vice versa.
    Sex trafficking is not the only source of exploitation and 
violence against women. A couple of examples. When I was 
executive director of the NGO Polaris Project, I met two 
Chinese women in Japan who were victimized for forced labor 
under a labor training program exempt from Japanese labor law.
    Also with Polaris, I met with an African woman who was a 
human trafficking victim, served as a client by Polaris, here 
in our country, right here in Washington. And she noted she 
thought it was charming how Americans talk so much about 
cruelty to animals, but some humans like her are treated worse 
than animals.
    As the TIP Office director who I would say established the 
parity of emphasis on labor slavery, I hope the pendulum isn't 
swinging toward focus on labor to the exclusion of sex 
trafficking. On page 8 of the 2010 TIP Report, it emphasizes 
that prostitution is not trafficking.
    That may be counterproductive. I don't think prostitution 
is one and the same as slavery, but prostitution is the 
enabling environment of sex trafficking, whether in brothels or 
in seedy streets or, until recently, on Craigslist in the 
United States. Sex trafficking is the basic enabling 
environment of men fueling demand by purchasing, chiefly, 
females, and that problem of sex trafficking and the demand 
shouldn't lose attention.
    There is another serious area of fissuring. Despite what 
some at the Department of Labor or the ILO or some businesses 
think, crossing borders is not a necessary element of 
trafficking. Whether the family freed from bonded labor that I 
met in Tamil Nadu, India, or the Mexican girl I met who was 
prostituted as a minor in Chiapas, those people are every bit 
as much TIP victims as those who cross borders.
    The global fight for dignity for human trafficking victims 
requires equal value and energy accorded to all of these 
victims.
    Let me talk briefly about four things I think we need to 
do. First, we need to be an exemplar. When I was the TIP Office 
director, the essential premise was that the United States 
needed to be an exemplar in order to be an effective promoter 
of the anti-trafficking agenda internationally. I very much had 
in mind the problem of U.S. detainee policy undercutting U.S. 
promotion of freedom and credible antiterrorism policy, and 
that is a continuity between the different directors of G/TIP 
in multiple administrations.
    Under the last administration we put a profile of the 
United States into the TIP Report. We disseminated the 
Department of Justice's annual report on the U.S. record 
widely, globally. And we got the Department of Justice to 
produce it in the same month as the TIP Report.
    I would really like to commend Secretary Clinton for going 
farther, for including a profile with a ranking, with a grade, 
and more lengthy recommendations about areas of weakness.
    Let's think about the problem at home. ECPAT, the NGO, 
commented recently in reading the profile of the United States 
in the TIP Report that according to U.S. Government statistics 
from 2008 and 2009, almost three times as many prostituted 
children were arrested as offered protection and assistance in 
the United States. We have got to be an exemplar.
    Secondly, persuading other governments to do more benefits 
from offering a helping hand. It is not fully appreciated, but 
the assistance to NGOs and the most efficacious international 
organizations like the IOM is as an important part of U.S. 
policy as any. And that assistance should go to some 
governments too, those on Tier 2 and Tier 2 Watch List that 
have a will to change but deserve help.
    I commend Amabassador CdeBaca for going to Africa on his 
first trip, and it is a good signal because less-developed 
African nations need not so much grading on a curve in the TIP 
Report as tangible assistance.
    Being an exemplar and offering a helping hand are important 
complements to pressuring governments. But make no mistake: 
Pressuring governments we must. The TVPA has manifestly 
worked--in case after case we have seen how the report and the 
rankings have worked. Even among allies unused to prodding from 
the United States, Turkey, Israel, the Philippines, the UAE, 
even Ireland, as we have seen it recently appointing an anti-
trafficking czar.
    The Wilberforce TVPA reauthorization had a tremendously 
important and welcome provision in the time limit on Tier 2 
Watch List status. Please, please conduct----
    Chairman Berman. Sir, on the time limit.
    Mr. Lagon. Okay, I will wrap up.
    Chairman Berman. No, no, just repeat on the time limit.
    Mr. Lagon. Yes. I said that the time limit on Tier 2 Watch 
List countries was probably the most valuable thing that you 
and your colleagues included in the TVPA reauthorization.
    I urge you to conduct oversight in how the Department of 
State and the executive branch deal with that time limit 
because, in fair-mindedness, you gave flexibility to the 
Secretary of State and the executive branch to defer or avert 
an automatic Tier 3 ranking if the national interest was 
involved. Play your vigorous role, as ever, in looking at how 
that is dealt with.
    And here is one other area for tougher love, which I know 
my friend David Abramowitz agrees on. One of the places where 
trafficking for labor and victimization of women converge is 
right here on U.S. soil: Diplomats mistreating domestic 
servants.
    I met with a woman from Goa, India, who was a human 
trafficking victim of a Kuwaiti official stationed here in the 
United States. She said to me, across a table, that the family 
treated her far worse as a domestic servant here in the United 
States than in Kuwait, because they felt even less reason to 
think that they would face consequences in the United States 
than in a Gulf country. That should make us pause in horror. It 
was worse in our country because of the impunity delivered by 
diplomatic immunity.
    Congress has made crystal clear in the TVPA, three times 
reauthorized, that attention should be paid to government 
officials found complicit in human trafficking. That is what we 
are talking about here and those cases should be cited 
specifically in the text of the TIP Report.
    One final recommendation. For 10 years, governments, NGOs, 
and international organizations have been dedicating sizeable 
efforts to fighting trafficking. More definitive efforts, more 
definitive results, more movement of the needle to squeeze 
trafficking and make it less profitable will come about if 
businesses work together to help.
    Let me be totally transparent here. I have been a paid 
consultant for a business engaged in corporate responsibility 
work in this area, LexisNexis Inc. In a week and a half, major 
businesses, including LexisNexis, from sectors as diverse as 
information technology, soft drinks, cosmetics, labor 
placement, energy, the auto industry, the airline industry, 
travel, entertainment and legal publishing will meet to talk 
about the feasibility of forming a Business Coalition Against 
Human Trafficking.
    Businesses need to go farther than they have to date--not 
just dialogue with the government and the U.N., not just public 
awareness campaigns that don't involve any accountability for 
their own business operations, and not just single-sector 
accountability efforts, such as in electronics, chocolate or 
hotels. We can end human trafficking if businesses are fully 
engaged. But if they are not, or if they are working in siloed 
sectors, we can't have that impact.
    Consumers are empowered by the Department of Labor report 
that indicates those goods tainted by forced and child labor. 
If those consumers knew that some businesses were actually 
trying to fight human trafficking rather than being enablers, 
those businesses would benefit.
    The TIP Report and the TIP Office have done a lot to take 
the issue of human trafficking out of the shadows. You might 
want to think here at the committee about how that office has 
done something that the State Department has had terrible 
trouble with for 10 years, public diplomacy: Raising up our 
universal values; offering the United States as a partner; 
engaging publics abroad. That is a model for other policies.
    Thank you for holding this hearing, taking this critical 
issue out of the shadows all the more.
    [The prepared statement of Mr. Lagon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Berman. Very good. Dr. Uprety.

    STATEMENT OF ARUNA UPRETY, M.D., FOUNDER, RURAL HEALTH 
   EDUCATION SERVICES AND TRUST, PARTNER, AMERICAN HIMALAYAN 
           FOUNDATION'S STOP GIRL TRAFFICKING PROGRAM

    Dr. Uprety. Mr. Chairman, I want to thank you and other 
members of the committee for inviting me to testify today here. 
I really feel that I am representing not only the two 
organizations that I am affiliated with--Rural Health and 
Education Service Trust and American Himalayan Foundation--but 
I am also representing my brothers and sisters from Nepal who 
are trying their best to combat this problem of human 
trafficking.
    I would like to start with a story why I started this small 
organization. In 1992, when I was in Mumbai to take part in an 
international seminar on HIV/AIDS, we went to red-light areas 
and found out that there were more Mumbai working girls who 
were minors. And we talked with them, if they would like to 
come back to Nepal.
    And one of the girls looked to us and said, ``Now it is too 
late for you to ask this question. If you had asked this 
question when we were still in our village, we were not lured 
by the beautiful dreams. And if we had had education, maybe we 
didn't come here and then we would have been safe without 
dying.''
    That statement, told to us with a very sad voice, made us 
feel that we had to do something in the villages where girls 
are treated very badly. They are not given the education and 
all the time they have to do household work. Because of gender 
discrimination, these girls are very much [unintelligible] To 
see, when they are asked to come to Bombay or any of the 
beautiful cities, and that was the seed for RHEST to be 
established.
    And after establishing this organization, which started 
with 54 girls, we have now grown up to 7,500 girls, and they 
are getting education in different places, including the 
government, and at the same time we are trying to raise the 
issue of Gulf trafficking in many cases with the girls, with 
the teachers, with the committees, with their parents, and we 
have found that it has been--really worked very well.
    And when you talk about Gulf trafficking, we used to think 
that it is only in India, in some Indian cities. Now we have 
said that it doesn't mean Gulf trafficking, not only to India, 
but even in other Middle East countries like Kuwait, Saudi 
Arabia, Indonesia, where girls are lured by the beautiful 
dreams that you are going to be house maid, you will have lots 
of money, you will have a very easy job. And once they land 
there, they find that they are victims of sexual abuse, they 
are not paid, and they have to be repeatedly abused by the 
owners.
    And about only 2 months ago, we had very sad incident where 
15 Nepalese women had committed suicide because they were 
sexually exploited by their owners, and they were there with 
the hope and dreams that they earn at least $200 a month; but 
instead of that, their dead body came back to Nepal. And it was 
only because they were illiterate. They did not know where they 
were going, and they were very much--very easy to educate by 
the companies who took them. That is why we are trying to put 
so much emphasis on education of the girls. And we have found 
that if the girls can be stayed in schools, and if she will 
know that if she will go somewhere, that this is without 
knowing what she is going to do, without knowing which place 
she is going, she can be the victim of sexual abuse, forced 
labor and be the victim of HIV/AIDS.
    That is why we and many of my friends are trying to raise 
the issue in international labor as well as in the South Asian 
countries and with the strong lobby of our [unintelligible] And 
the media, Nepalese Government has started to bring some good 
things, and one of that is to raise the issue in the national 
labor. They have made Special Rapporteur of Human Trafficking 
in the Mumbai edition, and they now publish every year what are 
the problems and how it can be handled.
    And we have also started working together with the police 
force in the border area. If they find that there are some 
women and girls who look innocent and who don't know where they 
are going, to stop them and find out what they are doing, where 
they are going. And if they are not satisfied with the 
questions and answers, they give them back to their parents. 
And this has really made some progress, and we are proud to say 
that it has really helped us in some ways.
    But still we have a long way to go, because when we talk 
about forced labor and sexual trafficking, there is a big Mafia 
with the international organization, as well as lack of 
political commitment from our government, has really made this 
program in some way weak. We totally are trying hard, we are 
trying our best, but not all the time political people and 
members of Parliament listen to us, and they think it is not 
that big a problem.
    But we think that in the 21st century it is slavery. And if 
a woman, if a girl is victim of sex labor and if she is 
trafficked, it is sinful for our country. It is sinful for our 
mission, and therefore we are trying our best to do that. And 
we have found that those girls who are trafficked, they are 
mostly--they are from the indigenous group and from the Dalit 
communities.
    And from the literacy tests, we found that Dalit 
communities are where the girls and women have literacy rates 
low as 3 percent in women. It means that they are very easily 
lured by the beautiful dreams. And that is what we are trying 
to, with the help of the American Himalayan Foundation, to give 
education to the girls so that they will be in the schools and 
they would learn about the problems, they would learn about 
schools, about their lives. And we have found that we have been 
successful in some cases. Though, as they say, a thousand 
lives, a thousand lives--a long journey has to start with a 
single step. We are trying our best to start this long journey.
    And we feel that international organizations and American 
Government really can do a lot to prevent this. And one of that 
is to make the STOP Girl Trafficking program very effective. It 
has to go through the community and not only in the 
[unintelligible], but in the villages, in the subs where it is 
for the people, specifically for the trafficker, who can go 
very easily, but for the people, it is difficult to go there. 
Because sometimes we have to walk about 2 to 3 days to reach 
those places, but traffickers are so smart that they can go 
very easily.
    But we have to make sure, we have to make plans and 
programs that we also can reach it and make aware people about 
this issue of 21st century, the problems, the challenges which 
they have to face if they will be lured by those beautiful 
dreams.
    So, Mr. Chairman, I am very happy to be here to give 
testimony and I certainly hope that you will help us, the U.S. 
Government and other international organizations, will help us 
combat this problem.
    [The prepared statement of Dr. Uprety follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Thank you very much. Ms. Misra.

  STATEMENT OF MS. NEHA MISRA, SENIOR SPECIALIST, MIGRATION & 
         HUMAN TRAFFICKING, SOLIDARITY CENTER, AFL-CIO

    Ms. Misra. Thank you, Mr. Chairman, and members of the 
committee for this opportunity to present to you the Solidarity 
Center's view of human trafficking from a labor perspective. My 
very proud immigrant mother thanks you.
    The Solidarity Center is an international NGO that promotes 
and protects workers' rights around the world, working in over 
60 countries last year. As a workers' rights organization, the 
Solidarity Center has seen firsthand how violations of workers' 
rights and lack of labor standards and protections for workers 
make them vulnerable to human trafficking.
    Human trafficking is a labor issue because it is often 
linked to the various forms of labor exploitation, and it is 
one of the worst forms of worker abuse. In 2010, a slave is not 
necessarily a person in chains or shackles; slavery is not 
simply ownership of one person over another.
    Modern-day slavery can be much more subtle. Trafficking 
victims toil in factories that produce products that are 
exported to the United States. They harvest vegetables and 
process food that ends up on our dining room tables. They pick 
crops or mine minerals that are raw materials in the products 
we buy. They make the clothes and the shoes that we wear. They 
clean people's homes and take care of the young, elderly, and 
the sick. They are enslaved, not only through physical 
restraint, but also through coercion, fear and intimidation. In 
today's global economy, workers can be enslaved by threats of 
deportation, lack of viable alternatives, and especially debt.
    There are many facets that make labor trafficking thrive 
around the world, and I just want to mention a few of these. 
One of them is the particular vulnerability of immigrant or 
migrant workers to human trafficking. Unsafe migration 
processes and the lack of labor or legal protections for 
immigrant workers make them easy targets for traffickers in the 
form of unscrupulous labor recruiters and employers.
    Migrant workers are specifically excluded from the 
protection of labor laws in many countries simply because of 
their foreign status or because of the sector that they work 
in, including in the United States, such as domestic work or 
agriculture. Traffickers take advantage of this exclusion and 
the failure to monitor and enforce laws in sectors where 
migrant workers or immigrant workers work, and this increases 
the vulnerability of these workers to human trafficking.
    It is not just undocumented immigrant workers that are 
vulnerable, but we are increasingly seeing in the United States 
and around the world legal immigrant workers being trafficked 
under what are called either temporary or guest worker 
programs. There are inherent structural flaws in temporary 
guest worker programs around the world that increases the 
vulnerability of foreign or immigrant workers to trafficking, 
such as being tied to a particular employer that doesn't allow 
you, if the employer is abusing you, to leave. If you do try to 
leave, you face deportation.
    A common theme for both documented and undocumented migrant 
workers, Mr. Chairman, is what you mentioned in your opening 
remarks which I would like to highlight, which is the world of 
labor recruiters and debt bondage. Increasingly around the 
world, we are really seeing the use by employers and by workers 
who are seeking to find work outside of their homes, they are 
using labor recruiters; and these labor recruiters are charging 
thousands of dollars to workers for the privilege of laboring 
for somebody else. And it is really these fees and these 
charges that are being placed on workers that is creating the 
situation of debt bondage.
    The other area that I would like to emphasize where labor 
trafficking is thriving is within supply chains. It is 
difficult to quantify the exact number of trafficking victims 
that work in global supply chains, but as supply chains reach 
down to smaller and smaller suppliers, the chances increase 
that trafficking victims are part of the labor force.
    The Solidarity Center believes the most effective way to 
eliminate forced labor, debt bondage, and other forms of 
slavery in supply chains is by empowering workers to have a 
voice in their workplace and supporting the right to organize 
and join unions.
    The existence of codes of conduct in multinational 
corporation policies have failed to curtail trafficking 
practice in a number of sectors, including garment, textile, 
agriculture, and seafood processing. There is no easy solution 
to this problem, but we know that a key deterrent is the 
ability of unions and labor rights organizations to shine a 
light on these practices through on-the-ground investigations.
    We believe that it is important for Congress and the 
administration to support such monitoring efforts and the 
efforts of workers to monitor their own workplaces. In order to 
get rid of trafficking in supply chains, we have to focus on 
corporate accountability and not just corporate social 
responsibility.
    Governments also must play a major role in eliminating 
slavery in supply chains. There are examples around the world 
of governments' reluctance to hold employers accountable for 
trafficking in the workplace. When they do address trafficking 
for labor exploitation in the supply chain, they often blame 
the labor recruiter and don't hold the end-user, the employer 
who is exploiting the worker, liable for that trafficking. When 
cases are prosecuted, they also result in just small fines and 
no jail time for the perpetrators, which is barely a deterrent 
for exploitative employers.
    I would also like to emphasize the importance of the 
Trafficking in Persons Report in highlighting labor 
trafficking. I have dealt with a lot of governments around the 
world who have complained to me about the Trafficking in 
Persons Report, but I have to tell you that it has been 
extremely important in Solidarity Center's work in being able 
to leverage and push governments to address issues of labor 
trafficking. Without this report, without being able to point 
to it and having cases of, such as in the Gulf, where legal 
migrant workers are trafficked for forced labor, it would be 
very difficult for us to get these governments to move.
    So just in closing, in the interest of time, I would just 
like to highlight a few key initiatives that I think we need to 
focus on to address labor trafficking. These include reforming 
labor and other laws to include and protect immigrants and 
domestic workers.
    Also, we have to pay equal attention to not just passing 
better laws but also implementing, monitoring, and enforcing 
these laws. This includes a greater role for labor inspectors. 
Labor inspectors must be engaged in and be an integral part of 
law enforcement initiatives to combat human trafficking. I have 
been to countries where literally there have been 5 to 10 labor 
inspectors for an entire country to monitor the situation for 
migrant workers, and that is just not going to help us solve 
this problem.
    In addition, labor inspectors have to be given special 
training to know how, when they go into workplaces, what are 
the questions they need to ask that go beyond just the initial 
questions to find trafficking in the workplace.
    We need to ensure that victims of labor trafficking not 
only participate in criminal prosecutions, but are also given 
access to civil suits where they can get withheld or back 
wages.
    As I said earlier, we have to ensure that employers are 
held accountable for their role in labor trafficking and that 
they are held accountable not just for what they do but also 
for what the labor recruiters that they hire and the 
subcontractors that they hire, the abuses that they commit in 
their supply chains.
    We have to place greater emphasis on safer migration 
processes for workers. And we have to have increased scrutiny 
of imports and exports to ensure that goods made from slave 
labor are not allowed into the marketplace. This also includes 
reviewing and reworking the role of ICE in overseas 
inspections.
    We have to have strict regulation of labor recruiters in 
employment agencies, and we must have a strict policy of no 
fees being charged to workers, period.
    We have to extend meaningful whistleblower protections to 
trafficked workers which allow workers and their 
representatives to sue to enforce all State, Federal, local, 
and employment laws, as well as the conditions in workers' 
contracts, without having to face deportation or removal.
    And, finally, we need to put increased pressure and 
monitoring on States to include trafficking for labor 
exploitation into anti-trafficking laws and regulations and to 
increase prosecutions of labor traffickers, including 
employers, as the perpetrators of human trafficking.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Misra follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Berman. Well, thank you very much. You talked 
about a lot of issues that I have been interested in for a long 
time.
    Dr. D'souza?

  STATEMENT OF BERYL D'SOUZA, M.D., MEDICAL DIRECTOR AND ANTI-
   HUMAN TRAFFICKING DIRECTOR IN INDIA, DALIT FREEDOM NETWORK

    Dr. D'souza. Thank you, Congressman Berman, for organizing 
this most significant hearing and inviting me to appear today 
with this prestigious panel.
    I would like to speak about India's progress in combating 
human trafficking, the challenges looming ahead, and four 
approaches to the crisis that are seeing success.
    Of the 28 million people around the world that the U.N. 
considers human slaves, the U.N. recognizes that most live in 
India and most are Dalits. Today, Dalits are the largest number 
of people categorized as modern-day slaves. So we really cannot 
have a discussion about human trafficking and not look at India 
and regard the problem of the Dalits.
    Because of their poverty and the resulting desperation and 
lack of options, trafficking is not simply a problem the Dalits 
face, it is an atrocity that has swept Dalit culture in all 
parts of the nation. Debt bondage is the Dalit destiny most 
feared. It is inherent in every Dalit religion and the life of 
every Dalit person. Their lack of access to education, health 
care, and a living wage leaves most Dalits resigned to a 
hopelessness that, without an intervention, will not change.
    The 2010 TIP Report placed India on the Tier 2 Watch List 
for the 7th year and defined it as a nation in which the number 
of victims of severe forms of trafficking is very significant 
or is significantly increasing.
    I am the daughter of a Dalit woman. I have dedicated my 
life to joining others in my country to end Dalit trafficking.
    Despite the bleakness of the situation, especially for 
India's 250 million Dalits, India is making progress in 
combating human trafficking. First, and most notably, the 
country's top leaders have spoken into the public record that 
human trafficking is India's number-one social problem, with 
estimates of 100 million people involved----
    Chairman Berman. Who has said that?
    Dr. D'souza. This has been----
    Chairman Berman. The government you say?
    Dr. D'souza. Yes, our home minister.
    Chairman Berman. Thank you.
    Dr. D'souza [continuing]. A crisis that should be dealt 
with by all stakeholders with a stern and iron hand.
    Second, there are committed individuals using their 
position to end this crisis. The 2010 TIP Report recognized Mr. 
Sattaru Umapathi as one of the nine global heroes. An anti-
human-trafficking officer, he led rescue operations, 
contributed to multiple convictions, forged partnerships with 
NGOs, and educated his state law enforcement community about 
victim rights. He is a true champion for victims everywhere.
    Third, dedicated NGOs are combating trafficking through 
rescue and restore, as well as preventive and preemptive 
programs. The NGO with which I am affiliated, the Dalit Freedom 
Network, and all its India partners are driving into the 
problems from both on-ramps and seeing results.
    But there are still major challenges looming ahead for 
India. As we anticipate the publication of the 2011 TIP Report, 
we recognize that India is at serious risk for demotion to Tier 
3 if significant efforts at improvement are not initiated and 
registered in the next 6 months.
    Only 7 percent of India's police personnel have received 
anti-trafficking training. The government's anti-human-
trafficking units lack sufficient personnel and funding. The 
existing laws, while substantive, do not focus on the rights 
and needs of victims. There are a low number of prosecutions 
and convictions of known traffickers.
    Due to lack of time, I will conclude with four approaches 
that are gaining traction and can serve as a template for other 
nations.
    First, we are seeing that the end of trafficking begins 
with education. Education changes a nation. The education of 
India's most vulnerable children becomes the most significant 
means of preventing the selling and exploitation of these 
children into the workforce and the sex trade.
    We educate Dalit children so they are worth more than the 
meager income they can make in the factories employing them. To 
date, there are 100 of these schools and nearly 25,000 children 
enrolled. Approximately 30 percent of the children are children 
of bonded laborers. They are studying hard, learning English, 
and preparing for a higher education and a future that does not 
know desperate poverty.
    Education is a preemptive strike in any nation in which its 
most vulnerable children are at risk of being trafficked.
    Second, the end of trafficking draws near when we 
economically empower marginalized populations. No longer are 
prostitution and debt bondage the only options for the poor. 
Dalits are being trained in marketable skills, finance 
management, and being offered micro loans to establish their 
own businesses and earn enough income so that they do not fall 
prey to fraudulent money lenders that demand exorbitant 
interest so that even a small loan can never be repaid. We 
cannot underestimate the horrors that follow when poor parents 
are forced to sell their own children in an attempt to pay down 
their debts.
    Third, human trafficking is deterred when societies pursue 
health care for all its citizens. Preventative health care, 
health hygiene, HIV and AIDS education, and safe labor 
practices all promote healthy communities and produce healthy 
economic factors. Most Dalits are forced into debt bondage 
because of a medical crisis that could have been avoided 
through proper health care.
    Finally, we find that advocacy efforts in India and abroad 
are yielding positive results and should continue to be 
specific and targeted, beginning with internal advocacy before 
the Indian Government and extending to our international allies 
who seek to stand with us before their own government in our 
united efforts to end Dalit trafficking.
    Thank you, again, Congressman Berman and this committee.
    [The prepared statement of Dr. D'souza follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Berman. Well, thank you all very much. It was 
fascinating and important.
    I am going to yield 5 minutes to my colleague, Mr. Royce, 
to begin the questioning.
    Mr. Royce. Thank you, Mr. Chairman, very much.
    And I will ask Dr. D'souza a question.
    In your written testimony, you mentioned Prime Minister 
Singh's statement. His statement was, ``Even after 60 years of 
constitutional and legal protection and support, there is still 
social discrimination against Dalits in many parts of our 
country. Dalits have faced a unique discrimination in our 
society that is fundamentally different from the problems of 
minority groups in general.'' That was his quote.
    How important was his statement, and how has it affected 
the treatment of Dalits as a consequence of that statement?
    Dr. D'souza. Yes, I think Prime Minister Singh deserves an 
accolade for his bold statement and being bold enough to 
address the issue of human trafficking and the relationship to 
the Dalit atrocities and the Dalit situation in India.
    I think the entire issue of Dalits has been a political 
issue in the Indian Government ever since we have had our 
independence. And by boldly declaring that as an issue, it has 
led to more preemptive measures, both from within the 
government as well as with the nongovernmental organizations, 
to deal with this significant problem.
    Mr. Royce. Do you think it has changed in any significant 
way the perception and maybe led to a situation where Dalits 
are less susceptible to human trafficking? Do you think it has 
an impact among Dalits and amongst society in general that has 
assisted?
    Dr. D'souza. Absolutely. I think Prime Minister Singh 
addressing and accepting the issue of Dalits from the Indian 
Government stance has been seen very welcomed by the Dalit 
community. The fact that they are being quantified, the fact 
that they are being addressed and their rights are being 
discussed has been very significant.
    Mr. Royce. The TIP Report recognizes certain heroes. One 
that they elevate you mentioned, Sattaru--do I say 
``Umapathi''?
    Dr. D'souza. That is right.
    Mr. Royce. Okay. He is the anti-human-trafficking officer 
in Andhra Pradesh. His work, of course, has led to multiple 
convictions of human traffickers. A lot of NGOs now across 
India have formed a partnership as a result of his activity and 
in Tamil Nadu, as well.
    Aside from highlighting his good work, how can we export 
some of the lessons? How do we expand on what is being done in 
those states and get other states involved? What are some of 
the ideas that might suffice to build the momentum on this?
    Dr. D'souza. Well, again, I would like to appreciate what 
has been discussed by Ambassador CdeBaca in the initial part 
about how trafficking should not be seen as a boutique issue 
but more a basic primary human-rights issue. And how, by 
accolading Umapathi, we are actually encouraging various law 
enforcement agencies within our country, different states 
across the country, to look at it as the significant issue it 
is and to encourage behavior, to exchange information, to 
exchange resources, to exchange best practices. That is the way 
to go ahead.
    Mr. Royce. We find that some of the answers here in the 
United States, too, are training of law enforcement. What was 
the percentage you gave on training today in trafficking?
    Dr. D'souza. It is about 7 percent of our police personnel.
    Mr. Royce. Yes.
    Dr. D'souza. It is only 7 percent of our police personnel 
that have had adequate training in regard to dealing with 
victims of human trafficking.
    Mr. Royce. Your point is, if that became a focus, along 
with the education of young women and young people and their 
equal opportunity through education, that that, more than 
anything else, would----
    Dr. D'souza. That is right.
    Mr. Royce. What are some of the ways that we might be able 
to promote the advocacy for education for everybody in society, 
including Dalits?
    Dr. D'souza. Again, access. Advocating for education and 
making sure it is accessible to everybody. In our country or in 
other different countries where you have so many social 
injustices all connected and so intertwined that it seems 
impossible to actually do any progress, you have to work 
together in a concerted manner to ensure equal opportunity, 
whether it is access to education, whether it is access to 
universal health care. Because these are the really critical 
roots that will actually ensure development happening.
    Mr. Royce. Thank you very much, Dr. D'souza.
    Thank you again, Mr. Chairman.
    Chairman Berman. Well, thank you.
    And I yield myself time. We are approaching this moment 
where I have to leave. I would love to stay. The great thing 
about being the last person to question and the chairman is 
that if I had the time, there are threads here that I would 
like to pursue for the next half hour with you, and I am not 
going to be able to.
    But there was an interesting connection between much of the 
testimony that all of you gave in a certain way, even though 
different things were focused on. So, Ambassador Lagon talks 
about the focus on the prosecution side of it and raises the 
implication of, are we doing enough in the area of both 
protection and prevention?
    And then Dr. Uprety describes a very specific situation of 
young Nepalese women and girls lured by their dreams, and there 
is nothing in their education at home or in school that points 
out the dangers of what could befall you, and how many people 
could avoid being victims of human trafficking by just focusing 
on that aspect of making people aware of the pitfalls of doing 
some of the things that they are enticed to do at a point where 
they still are not in harm's way.
    And then Dr. D'souza adds the notion that maybe you also 
need a component of other alternatives, not just the warnings 
of what could befall you, but the notion that there are other 
opportunities, other avenues.
    And then Ms. Misra spoke. I have been very interested in 
the issues of migrant labor and how to deal with the 
exploitation that comes from it. But the point that all of you, 
and particularly Ms. Misra, have driven home is that 
exploitation turns into a slavery, trafficking kind of--is a 
fairly thin line between getting shorted on your paycheck and 
in the end being held, in a sense, in bondage.
    And we have talked about, how do you get through some of 
this? If you are going to have guest-worker programs to deal 
with labor shortages in certain areas, like farming, to what 
extent could Mexico, as a government, be the source of 
selection, protection of the workers who would be coming over, 
rather than private recruiters working on behalf of grower 
interests here, but charging the person more than, in effect, 
the grower for bringing them in. If you could turn it into a 
bit of a government-to-government thing, you could avoid many 
of those issues.
    And the notion that you are stuck in that situation with 
one employer and that your alternatives are staying there under 
what could be horrid conditions or going back to your home 
country, rather than that person knowing that he could lose the 
worker to another grower or employer who isn't engaging in 
those kinds of practices could be a great deterrent.
    So these are very interesting things.
    I want to ask Mr. Abramowitz one question, though. You 
talked in your testimony about urging us to focus on the 
importance of the administration's implementation of the new 
features of the Trafficking Victims Protection Reauthorization 
Act of 2008 relating to moving countries from Tier 2 Watch List 
to Tier 3, where the sanction would apply, and the question of 
Presidential waivers.
    Spell that out a little bit. What should we be concerned 
about here?
    Mr. Abramowitz. Well, Mr. Chairman, I think this came up in 
several of the other testimonies, including Ambassador Lagon as 
well as Dr. D'souza. As was referenced, the TVPRA of 2008 
amended the Trafficking Victims Protection Act of 2000 so that, 
rather than countries being able to stay on the Tier 2 Watch 
List forever--which has been the situation with a number of 
countries, including India, China, and Russia--after 2 years, 
they are going to have to go down to Tier 3 if they haven't 
been able to move up.
    I think that this is going to cause a lot of hydraulic 
pressure on the Trafficking in Persons Office to try to find 
ways, for example, as Mr. Royce suggests might have happened to 
Cambodia, to move them up from the Tier 2 Watch List up to Tier 
2 so that they can avoid that, because this is the second year 
for a number of those countries.
    The alternative to that, though, is, if it is determined 
that there is no real progress being made, let's say within 
India because it goes from 7 percent to 7.1 percent of the 
number of police officers trained, then those countries are 
going to fall down to Tier 3 and, therefore, be subject to 
sanctions.
    I would rather have an honest assessment, have the 
countries fall down, and then the President make a 
determination as to whether assistance needs to be cut off or 
not. However, I do think that there is some risk that, if a 
number of countries do go down to Tier 3 and there is a wide 
range of waivers that the President then implements--because, 
in India, we need to continue cooperation, or Russia, we need 
to continue democracy assistance, whatever the national 
interest is--then I think there is a possibility that the 
officials in foreign countries will say, Oh, this is not a big 
problem because the President will just waive for us.
    I do think that the name and shame issue remains something 
that is a very, very powerful motivator. It is not just because 
of the threat of sanctions, but Ambassador CdeBaca said today 
that the threat of sanctions is a component of that.
    So my own view is that we need to try to see if the 
administration will not only continue on its assessment but 
also will look at maybe, perhaps, targeted waivers of 
assistance that really go to pushing forward rather than just 
wholesale waivers in the national interest.
    Chairman Berman. My time has more than expired. I didn't 
realize the gentlelady was here. Could I invite the gentlelady 
to take over the questioning and the chair? Because I have to 
go someplace where you may be joining me very soon.
    Ms. Jackson Lee. Mr. Chairman, in light of that, can I just 
take 3 minutes or so and not hold you?
    Chairman Berman. All right. The gentlelady is recognized 
for 3 minutes.
    Ms. Jackson Lee. Okay. I did not want to miss this hearing, 
Mr. Chairman, because I think the issues before us are so very 
vital. And I had an overlapping immigration hearing that, 
likewise, is facing a number of concerns.
    So let me say that human trafficking is the most dastardly 
attack on human dignity and the values that one holds for the 
respect we have for humanity. We cannot describe it any way 
other than that it cuts off and extinguishes the life of 
someone without killing them, and particularly women who are 
vulnerable and with great--women and children, in particular.
    We were holding a hearing in the Judiciary Committee on 
human trafficking in the United States. So none of us are 
immune from this. And I want to thank the chairman for this 
hearing. Coming out of the shadows is very important.
    Let me ask two questions. And I am just selectively--David, 
because we have worked together--to highlight the vileness of 
it. But what should our first aim be if we want to take the 
high goal of extinguishing human trafficking around the world?
    And then, if I could ask Aruna, if you would, likewise, 
tell us the lowest ebb that victims fall into and what we 
should do for those victims.
    David?
    Mr. Abramowitz. Thank you, Ms. Jackson Lee.
    It is very hard because there are so many different 
interventions that we need to consider. I think what Dr. Uprety 
is doing in terms of trying to educate women and girls, in 
particular, and also offering, as was said, some hope for the 
future, through talking about additional educational 
opportunities and so on, is an important part of the prevention 
piece.
    I think that in terms of trying to ensure that we use our 
diplomacy to try to make sure that discriminated populations, 
like Dr. D'souza said, are really highlighted, I think that Mr. 
Royce, one of the things that we should think about is trying 
to see if the President can raise the issue of the Dalits in 
some way. I think if the First Lady were to meet with Dalits 
while she was in India, that would have an amazing----
    Ms. Jackson Lee. Raise the issue--I am sorry?
    Mr. Abramowitz. Of Dalits--that is, the discriminated 
populations in India that have historical social discrimination 
against them. If she were to meet with a Dalit population and 
talk about the importance of education, those kinds of steps 
can have an important impact on raising issues in ways that are 
difficult to quantify but I think could have a real impact.
    I will just leave it at that and turn it over to Dr. 
Uprety.
    Ms. Jackson Lee. Thank you very much.
    Doctor?
    Dr. Uprety. From my discussion with the police officers 
before I came here, we have found that girls below 12 had also 
been trafficked. And, from my personal experience, when I had 
been in some places where children are trafficked for circus, a 
9-year-old girl had been trafficked from a district of Nepal to 
India. And later on, after 2 or 3 years, she came back, and now 
she is one of our students.
    So, if you will look at that, children below 10 can also be 
trafficked, and 12, 13 also can be trafficked. And that is the 
saddest part of this human trafficking.
    Ms. Jackson Lee. So, we need to, in conclusion, Mr. 
Chairman, take this to the highest level of our psychic, be as 
hostile against it as possible, and let people know that, when 
you are trafficked, you are also sexually violated and abused.
    And I join you--I know the First Lady has many issues. She 
is an eloquent spokesperson. And so I would like to join in 
that effort and join, also, as raising my voice against this 
dastardly deed.
    Thank you very much, Mr. Chairman.
    Chairman Berman. Thank you.
    While I would really love to pursue some of the things 
more, we can't. We are going to rush off to something else; I 
think all three of us have to do that and we are very grateful 
you came. We are going to follow up on your testimony and your 
suggestions and take it very seriously and maybe even raise 
this issue in our next meet meeting.
    Thank you very much.
    Mr. Abramowitz. Thank you, Mr. Chairman.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]
                                     

                                     












                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Material submitted for the record by Mr. David Abramowitz, Director of 
            Policy and Government Relations, Humanity United

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Material submitted for the record by Aruna Uprety, M.D., Founder, Rural 
   Health Education Services and Trust, Partner, American Himalayan 
               Foundation's Stop Girl Trafficking Program

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
